<html>
<title> - INCLUSION IN TECH: HOW DIVERSITY BENEFITS ALL AMERICANS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








        INCLUSION IN TECH: HOW DIVERSITY BENEFITS ALL AMERICANS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

                           Serial No. 116-13




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov 
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
37-565 PDF               WASHINGTON : 2020
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)

                                  (ii) 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Tony Cardenas, a Representative in Congress from the State 
  of California, prepared statement..............................     3
Hon. Robin L. Kelly, a Representative in Congress from the State 
  of Illinois, prepared statement................................     4
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, prepared statement................................    10
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina, opening statement...........................    10

                               Witnesses

Mark S. Luckie, Digital Media Strategist and Former Manager, 
  Twitter and Facebook...........................................    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   150
Joan Ferrini-Mundy, Ph.D., President, University of Maine........    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   152
Jiny Kim, Vice President, Policy and Programs, Asian Americans 
  Advancing Justice..............................................    34
    Prepared statement \1\.......................................    36
Nicol Turner Lee, Ph.D., Fellow, Center for Technology 
  Innovation, Governance Studies, Brookings Institution..........    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   154
Natalie Oliverio, Founder and Chief Executive Officer, Military 
  Talent Partners................................................    63
    Prepared statement...........................................    64
    Answers to submitted questions \2\...........................   156
Jill Houghton, President and Chief Executive Officer, 
  Disability:IN..................................................    68
    Prepared statement \3\.......................................    70
    Answers to submitted questions...............................   159

----------

\1\ A February 2017 report entitled ``Breaking the Mold: 
  Investing in Racial Diversity in Tech'' has been retained in 
  committee files and also is available as part of Ms. Kim's 
  written testimony at https://docs.house.gov/meetings/IF/IF17/
  20190306/108901/HHRG-116-IF17-Wstate-KimJ-20190306.pdf.
\2\ Ms. Oliverio did not answer submitted questions for the 
  record by the time of publication.
\3\ A report entitled ``The 2018 Disability Equality Index: A 
  Record Year for Corporate Disability Inclusion and Leadership'' 
  has been retained in committee files and also is available as 
  part of Ms. Houghton's written testimony at https://
  docs.house.gov/meetings/IF/IF17/20190306/108901/HHRG-116-IF17-
  Wstate-HoughtonJ-20190306.pdf.
David Lopez, Co-Dean, Rutgers Law School-Newark..................    74
    Prepared statement...........................................    76
    Answers to submitted questions...............................   162

                           Submitted Material

Article of July 26, 2018, ``Amazon's Facial Recognition Wrongly 
  Identifies 28 Lawmakers, A.C.L.U. Says,'' by Natasha Singer, 
  The New York Times, submitted by Mr. Rush......................   124
Letter of March 6, 2019, from Marc H. Morial, President and Chief 
  Executive Officer, National Urban League, to Ms. Schakowsky and 
  Mrs. Rodgers, submitted by Ms. Schakowsky......................   128
Letter of March 5, 2019, from Marc Rotenberg, President, and 
  Caitriona Fitzgerald, Policy Director, Electronic Privacy 
  Information Center, to Ms. Schakowsky and Mrs. Rodgers, 
  submitted by Ms. Schakowsky....................................   130
Letter of March 5, 2019, from Sean Perryman, Director of 
  Diversity and Inclusion Policy & Counsel, Internet Association, 
  to Ms. Schakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky   134
Statement of Jennifer Huddleston, Research Fellow, Mercatus 
  Center at George Mason University, March 6, 2019, submitted by 
  Ms. Schakowsky.................................................   136
Letter of March 5, 2019, from Maxine Williams, Chief Diversity 
  Officer, Facebook, Inc., to Mr. Pallone, et al., submitted by 
  Ms. Schakowsky.................................................   140
Letter, undated, from Hon. Maxine Waters, a Representative in 
  Congress from the State of California, to Mr. Pallone, 
  submitted by Ms. Schakowsky....................................   146
Blog post of February 27, 2018, ``Expanding Apprenticeship 
  Program Across the Country to Hire more Veterans,'' by Paul 
  Marchand, Executive Vice President, Human Resources, Charter 
  Communications, submitted by Ms. Schakowsky....................   148

 
        INCLUSION IN TECH: HOW DIVERSITY BENEFITS ALL AMERICANS

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:33 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Castor, 
Veasey, Kelly, O'Halleran, Lujan, Cardenas, Blunt Rochester, 
Soto, Rush, Matsui, McNerney, Dingell, Pallone (ex officio), 
Rodgers (subcommittee ranking member), Latta, Guthrie, Bucshon, 
Hudson, Carter, and Gianforte.
    Also present: Representatives Butterfield and Clarke.
    Staff present: Jeffrey C. Carroll, Staff Director; Evan 
Gilbert, Press Assistant; Lisa Goldman, Counsel; Waverly 
Gordon, Deputy Chief Counsel; Alex Hoehn-Saric, Chief Counsel, 
Communications and Technology; Meghan Mullon, Staff Assistant; 
Joe Orlando, Staff Assistant; Tim Robinson, Chief Counsel; 
Chloe Rodriguez, Policy Analyst; Melissa Froelich, Minority 
Chief Counsel, Consumer Protection and Commerce; Peter Kielty, 
Minority General Counsel; Bijan Koohmaraie, Minority Counsel, 
Consumer Protection and Commerce; Brannon Rains, Minority Staff 
Assistant; and Nate Wilkins, Minority Fellow.
    Ms. Schakowsky. The Subcommittee on Consumer Protection and 
Commerce will now come to order.
    I am going to say good morning, and thank you all for 
joining us today.
    And I will recognize myself first for 5 minutes with an 
opening statement.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Once again, good morning to everybody. Thank you to our 
witnesses.
    Today, we are meeting to discuss an important issue, the 
lack of diversity in the tech workforce. As the presence of 
technology continues to play a larger and larger role in all of 
our lives, industry's workforce has remained largely 
homogeneous. People of color, women, and older Americans have 
all been notably absent from the tech workforce, and the 
corresponding problem that that creates has been that the 
technology itself reflects that lack of diversity. And I want 
to hear about that today.
    This has real impact on Americans. We have seen algorithms 
biased against sentencing guidelines, resulting in harsher 
sentences for minorities. We have seen that automatic soap 
dispensers sometimes fail to recognize the hands of African 
Americans and Latinos--imagine that--who are seeking to use the 
product to wash their hands. These may seem like two opposite 
sides of the spectrum as far as harm, but they both clearly 
demonstrate that something is amiss.
    Simply put, diverse voices are lacking in the tech 
workforce. Moreover, diverse startups are facing difficulty 
competing with the large multinational technology companies. It 
strikes me that unfair business practices and extreme market 
concentration in tech may, in fact, perpetuate the bias and the 
old boys' club, or actually the young boys' club, that we are 
examining today. This lack of diversity in the workforce has 
real-life impact on consumers, and I thank our panel for coming 
here to discuss this very important issue.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared statement of Hon. Jan Schakowsky

    Good morning and thank you all for joining us today. Today, 
we are meeting to discuss an important issue, diversity in the 
tech workforce. As the presence of technology continues to play 
a larger and larger role in Americans' lives, the industry's 
workforce has remained largely homogenous. People of color, 
women, and older Americans have all been notably absent from 
the tech workforce.
    This has real impacts on Americans--we have seen 
algorithmic bias impact sentencing guidelines, resulting in 
harsher sentences for minorities. We have seen soap dispensers 
fail to recognize the hands of African Americans and Latinos 
seeking to use the product to wash their hands. These may seem 
like two opposite sides of the spectrum, as far as harm, but 
they both clearly demonstrate that something is amiss.
    Simply put, diverse voices are lacking in the tech 
workforce. It strikes me that unfair business practices and 
extreme market concentration in tech may in fact perpetuate the 
boys club that we are examining today. As previously stated, 
this lack of diversity in the workforce has real life impacts 
on consumers. I thank our panel for coming here to discuss this 
important issue.
    With that, I yield to my vice chair from California, Mr. 
Cardenas, for 1 minute.

    Ms. Schakowsky. With that, I want to yield 1 minute to the 
vice chair of this subcommittee, from California, Mr. Cardenas, 
for 1 minute.
    Mr. Cardenas. Thank you very much, Madam Chairwoman.
    It is no secret that the tech industry has a diversity 
problem, and every day we are seeing more and more unintended 
consequences when companies lack a diverse body of employees. 
We are seeing fitness trackers, for example, that have problems 
with dark skin. They just don't operate properly. Virtual 
assistants like Alexa having a hard time recognizing accents.
    Something that is no secret is that we still have something 
that is news to some people: Diversity is actually good for 
business. The Hispanic community in America has a buying power 
annually of upwards of $1.5 trillion. Hispanics make the 
fastest-growing number over number of growing Americans in this 
country. Also, it is a younger population, and Hispanics happen 
to have a high brand loyalty. So, it is good for business to 
have diversity, especially when it comes to Hispanics.
    Reports show that companies with more diversity amongst 
senior executives were 33 percent more likely to see an 
increase in their bottom line. When you have diverse 
backgrounds and experiences among your employees, you spur 
innovation; you avoid creating bias into your products; you 
avoid turning your back on a whole group of Americans.
    So, how do we solve this problem? I will say this: for 
example, a sharp Princeton-educated computer engineer recently 
told me she heard her coworker say that women and people of 
color dilute the talent pool for tech companies. I take that 
very personal. I am an electrical engineer myself.
    We have a problem in our culture in the tech industry that 
diversity is not only not prioritized, it's seen as a 
hindrance, of which nothing could be further from the truth.
    I would like to say much more, but, again, thank you, Madam 
Chairwoman, and I yield back the balance of my time.
    [The prepared statement of Mr. Cardenas follows:]

                Prepared statement of Hon. Tony Cardenas

    Thank you, Chairwoman Schakowsky. It's no secret that the 
tech industry has a diversity problem. Every day we're seeing 
more and more unintended consequences when companies lack a 
diverse body of employees. We're seeing fitness trackers for 
example that have problems with dark skin. Virtual assistants 
like Alex having a hard time recognizing accents.
    Something else that's no secret--but might still be news to 
some people--diversity is good for business.
    The Hispanic community in America has a buying power 
annually of upwards of $1.5 trillion. Hispanics have high brand 
loyalty. It's good for business to have diversity, especially 
when it comes to Hispanics.
    Reports show that companies with more diversity among 
senior executives were 33 percent more likely to see an 
increase in their bottom line.
    When you have diverse backgrounds and experiences among 
your employees, you spur innovation. You avoid accidentally 
embedding bias into your products. You avoid turning your back 
on a whole group of Americans.
    So how do we solve this problem?
    I'll say this--a sharp, Princeton-educated computer 
engineer recently told me she heard her coworker say that women 
and people of color dilute the talent pool for tech companies. 
Not only is that false--it's highly offensive. I myself am an 
engineer by training. We have a problematic culture in the tech 
industry when diversity is not only NOT prioritized--it's seen 
as a hinderance. And nothing can be further from the truth.
    Let's make technology work for all Americans and also help 
businesses succeed.
    I yield back my time to the chairwoman.

    Ms. Schakowsky. And I yield now the balance of my time to 
Congresswoman Kelly.
    Ms. Kelly. Thank you, Madam Chair.
    Thank you, Chairwoman Schakowsky and Ranking Member 
Rodgers, for holding this hearing today.
    As a founder of the Tech Accountability Caucus and founder 
of the Diversifying Tech Caucus with my colleague on the other 
side of the aisle, Cathy McMorris Rodgers, I am glad that this 
subcommittee is committed to addressing the issue of diversity 
in tech.
    Report after report from technology companies continue to 
show a lack of diversity in their workforces. According to the 
National Urban League, less than 5 percent of the digital 
workforce is African-American today. It is not just the large 
tech companies in Silicon Valley. Organizations like Mentoring 
Youth Through Technology, or MYTT, in my district help get 
minority students interested in STEM careers, but I continue to 
hear from startups in Chicago that they struggle to recruit 
diverse workforces. This is a fundamental problem, getting 
women and minorities into the technology jobs, and it must be 
corrected.
    A lack of diversity creates real-world problems of 
producing programs that can harm underserved communities. 
Poorly trained artificial intelligence tools can lead to 
implicit racial, gender, or ideological biases and can 
perpetuate existing biases. As AI use becomes more common and 
decisions are made by machines, we may not understand it is 
vital that these considerations are taken into account.
    I am hopeful that companies are going to see the benefits 
of having a diverse workforce that brings new ideas and 
perspectives. While there is no one solution to this problem, I 
hope that the witnesses today--and I am happy to see a former 
colleague, Dr. Turner Lee--will share their experiences and 
make recommendations, so we can continue to make tech a more 
diverse and inclusive community.
    Thank you, Madam Chair.
    [The prepared statement of Ms. Kelly follows:]

               Prepared statement of Hon. Robin L. Kelly

    Thank you, Chairwoman Schakowsky and Ranking Member Rodgers 
for holding this hearing today. As a founder of the Tech 
Accountability Caucus and founder of the Diversifying Tech 
Caucus with my friend on the other side of the aisle, Cathy 
McMorris Rodgers, I am glad that this subcommittee is committed 
to addressing the issue of diversity in tech.
    Report after report from technology companies continue to 
show a lack of diversity in their workforces. According to the 
National Urban League, less than 5 percent of the digital 
workforce is African-American today. It is not just the large 
tech companies in Silicon Valley. Organizations like Mentoring 
Youth Through Technology or MYTT in my District, help get 
minority students interested in STEM careers. But I continue to 
hear from start-ups in Chicago that they struggle to recruit 
diverse workforces. There is a fundamental problem getting 
women and minorities into the technology jobs and it must be 
corrected.
    A lack of diversity creates real world problems of 
producing programs that can harm underserved communities. 
Poorly trained artificial intelligence tools can lead to 
implicit racial, gender, or ideological biases and can 
perpetuate existing biases. As AI use becomes more common and 
decisions are made by machines we may not understand, it is 
vital that these considerations are taken into account.
    I am hopeful that companies are going to see the benefits 
of having a diverse workforce that brings new ideas and 
perspectives. While there is no one solution to this problem, I 
hope that the witnesses today will share their experiences and 
make recommendations so we can continue to make tech a more 
diverse and inclusive community.

    Ms. Schakowsky. Thank you. Thank you.
    And now, it is my pleasure to recognize for 5 minutes our 
ranking member, Ms. McMorris Rodgers.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you. Thank you, Madam Chair, and I 
appreciate you organizing this panel today, and appreciate the 
additional voices at the table.
    As my colleague Congresswoman Kelly just said, we organized 
the Diversifying Tech Caucus in 2015. It was aimed at 
highlighting some of these issues that we are going to hear 
more about today, getting more women, people with disabilities, 
minorities, veterans, into the tech sector.
    At a time when we are celebrating a booming economy because 
of our work on tax reform and to lift the regulatory burden, 
our economy has more jobs today. We have record low 
unemployment, record participation with African Americans, 
Hispanics, people with disabilities, people coming off the 
sidelines. It means that there are more opportunities for 
people to find better-paying jobs and have an opportunity for a 
better life.
    Today's hearing focuses, I believe, on an important aspect 
of encouraging those opportunities for all. And it is the focus 
on recruitment. We need to be doing more to recruit into the 
tech field, but also, once we recruit, to retain and promote 
these individuals into positions of leadership.
    The creation of one high-tech job is projected to create 
4.3 other jobs in the local economy. I often say the job is the 
opportunity. It is vital that these opportunities are available 
to people from all walks of life. A vibrant and dynamic 
workplace with women, people of color, people with 
disabilities, reflects the promise of America, where, no matter 
who you are, you can achieve your version of the American 
dream.
    Oftentimes, it might look different than your own. I am 
excited personally for the opportunities for those with 
disabilities to work because more are offering the 
accommodations and the job coaches. Employing people with 
disabilities fosters innovation and it creates a stronger 
workplace culture.
    Many tech companies are leading in hiring those with 
autism. And because of their unique abilities for the attention 
to detail and the abilities to detect patterns, taking a 
software testing company like ULTRA Testing, the founder's wife 
one day told him, quote, ``We spend all this time focused on 
things these children may never be good at, but we spend no 
time nurturing the skills they already have a talent for. Isn't 
that a shame?'' And he agreed, and he got to work hiring people 
with autism to leverage their strengths. And now, ULTRA Testing 
is outperforming bigger companies in software quality 
assurance.
    This month, we are also celebrating Women's History Month, 
and it is a time to celebrate women who are leading across the 
board. Our goal today is to see more women in tech leading, 
being those disruptors, inspiring our next generation of 
transformational women leaders.
    Again, it may look different. Women have different 
leadership styles. And research is showing that we have greater 
understanding for teams and systems. We foster a healthy 
workplace culture. When women are not at the table, our 
perspectives and voices aren't represented. A study by McKinsey 
shows that companies with women in executive positions 
outperform the average profitability of their industries by 21 
percent. Tech companies that don't open the door for women to 
shine and be decisionmakers risk being left behind. So, yes, we 
need to do more to open the door to allow these women to shine 
and do more to retain and promote these women.
    America has led the world in innovation. We celebrate that 
every single day. Entrepreneurs from all walks of life are 
taking an idea, making it a reality, creating more 
opportunities for hardworking people across the country. Again, 
that is the promise of America. It is not the promise for just 
some people or the somebodies in Silicon Valley. It is a 
promise for everyone. When we celebrate every person's 
strengths and abilities and embrace what every person has to 
offer, we are living up to that promise.
    I recognize there has been tremendous efforts, like 
recruiting more girls into STEM, and hiring people with 
disabilities, like ULTRA Testing that I mentioned. We need to 
continue to do more to address the pipeline, whether it is 
young people of every background, in girls in elementary and 
middle school, and exceptional people with disabilities, but we 
also need to focus on how we retain those individuals once they 
are recruited, and do more to encourage their promotion to 
leadership positions. So, today I look forward to hearing how 
the tech industry is leading on this and where you can also do 
better.
    Thank you all for being here.
    [The prepared statement of Ms. Rodgers follows:]

           Prepared statement of Hon. Cathy McMorris Rodgers

    Good morning.
    Today we are focused on an issue I have led on for quite 
some time: diversity in the tech industry.
    Today, we will have an opportunity to give credit where 
credit is due, while also exploring how we continue to do 
better.especially where we can continue to improve where we 
recruit, retain, and promote a more diverse workforce.
    I want to thank Chair Schakowsky for organizing this 
hearing today and for including all the voices at the table.
    I also would like to recognize my good friend from 
Illinois, Robin Kelly.
    In 2015, we launched the Diversifying Technology Caucus 
aimed at getting more women, people with disabilities, 
minorities, and veterans into the tech sector.
    I want to thank Ms. Kelly for working with me to promote 
more opportunities for all in the tech sector.
    This is an exciting time in America. Because of our work on 
tax reform and to lift the regulatory burden our economy is 
booming. After a decade of Americans asking, ``where are the 
jobs?'' wages are rising and there are more jobs available than 
people looking for work.
    As the Wall Street Journal just reported, women are driving 
the laborforce comeback.
    In addition, a record number of African Americans, 
Hispanics, and people with disabilities are coming off the 
sidelines and finding work.
    It means that more people are finding opportunities for a 
better life in healthcare, energy, construction, the service 
industry and more.
    Today's hearing is about ensuring more individuals have 
opportunities to pursue and advance careers in the tech 
industry too.
    The creation of one high tech job is projected to create 
4.3 other jobs in a local economy.
    Because a job is the opportunity it's vital that these 
opportunities are available to people of all walks of life.
    A vibrant and dynamic workplace with women, people of 
color, people with disabilities, and more reflects the promise 
of America where no matter who you are, you can achieve your 
version of the American dream.
    Oftentimes it may look different and I'm excited about more 
opportunities for those with disabilities to work because of 
more commitments to accommodations and job coaches.
    Employing people with disabilities fosters innovation and 
it creates a stronger workplace culture.
    Many tech companies are leading in hiring people on the 
autism spectrum because of their unique abilities for attention 
to detail, and abilities to detect patterns.
    Take a software testing company called, ULTRA Testing. The 
founder's wife one day told him:
    ``We spend all this time focused on things these children 
may never be good at but we spend no time nurturing the skills 
they already have a talent for--isn't that a shame?''
    He agreed, and got to work hiring people with autism to 
leverage their strengths. Now ULTRA Testing, a startup, is 
outperforming bigger companies in software quality assurance.
    This month we are also celebrating Women's History Month.
    It's a time to celebrate the women who are leading in tech 
being disruptors and inspiring our next generation of 
transformational women leaders.
    Again, it may look different. Women have different 
leadership styles.
    And research is showing that we have greater understanding 
for teams and systems and we foster a healthy workplace 
culture.
    When women are not leading at the table. our perspectives 
and our voices aren't represented.
    A study by McKinsey shows that companies with women in 
executive positions outperformed the average profitability of 
their industries by 21 percent.
    Tech companies that don't open the door for women to shine 
and be decision makers risk being left behind.
    Yes, that means hiring more women but it also means 
fostering an environment focused on retention and the promotion 
of women too.
    America is leading the world in innovation.
    Every single day, entrepreneurs from all walks of life are 
taking an idea making it a reality and creating more 
opportunities for hardworking people across the country.
    Again, that's the Promise of America. It's not the promise 
for just some people or the somebodies in Silicon Valley. It's 
a promise for everyone.
    When we celebrate every person's strengths and abilities 
and embrace what every person has to offer we are living up to 
that promise.
    I recognize there's been tremendous efforts like recruiting 
more girls into STEM and hiring people with disabilities, like 
at ULTRA Testing.
    We need to continue to do more to address the pipeline, 
whether it's young people of every background and girls in 
elementary and middle school. and exceptional people with 
disabilities.
    We also need to focus on how we retain those individuals 
once they are recruited and do more to encourage their 
promotion to leadership positions.
    So today, I look forward to hearing how the tech industry 
is leading on this and where you can also do better.
    Thank you to our witnesses.
    I yield back.

    Ms. Schakowsky. The gentlewoman yields back. And now, the 
Chair recognizes Mr. Pallone, chairman of the full committee, 
for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    As this subcommittee knows well, the influence of the 
internet and technology in our lives has grown exponentially 
over the past two decades, and our daily lives as consumers and 
workers have become dependent on technology. But while the U.S. 
has become more and more diverse, the workforce of the 
technology sector has not kept up. And we are seeing the 
effects of that in the products and services we use, like the 
wearable fitness trackers that don't work for people with dark 
skin, online job advertisements targeted at men over women, and 
websites with buttons and links too small for people with motor 
impairments to use.
    Without inclusive workforces, too often product design 
leaves people out, and the result can be embarrassing for the 
company when discovered and harmful for society when a 
discriminatory result is not identified and fixed. These are 
complicated and often uncomfortable discussions, but they are 
necessary to start to make changes.
    The Congressional Black Caucus launched its Tech 2020 
Initiative in 2015 and has been working to hold companies 
accountable since. And several members of this committee have 
been working on these issues for years.
    I would like to yield time to some of them today. So, I 
will start beginning with Mr. Lujan. I would yield 1 minute to 
him.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    As this subcommittee knows well, the influence of the 
Internet and technology in our lives has grown exponentially 
over the past two decades. Our daily lives as consumers and 
workers have become dependent on technology.
    But while the United States has become more and more 
diverse, the workforce of the technology sector has not kept 
up. And we are seeing the effects of that in the products and 
services we use-like wearable fitness trackers that don't work 
for people with dark skin, online job advertisements targeted 
at men over women, and websites with buttons and links too 
small for people with motor impairments to use. Without 
inclusive workforces, too often product design leaves people 
out. The result can be embarrassing for the company when 
discovered and harmful for society when a discriminatory result 
is not identified and fixed.
    These are complicated and often uncomfortable discussions, 
but they are necessary to start to make changes. The 
Congressional Black Caucus launched its Tech 2020 initiative in 
2015 and has been working to hold companies accountable since. 
And several members of this committee have been working on 
these issues for years. I'd like to yield time to some of them 
today, beginning with Mr. Lujan for 1 minute.
    Thank you, I will also yield a minute to Mr. Butterfield 
for 1 minute.
    Thank you. And I will yield my final minute to Mr. Rush.

    Mr. Lujan. Thank you very much, Mr. Chairman. And I thank 
our Chair and our ranking member for this important hearing.
    When it comes to diversity in tech, let me be clear, more 
is needed. The tech industry is not where it needs to be on 
this issue. Representation of women and people of color in tech 
companies lags the rest of corporate America, and this matters.
    As Dr. Lee notes in her testimony, the absence of diversity 
among the people that make the decisions around products and 
services for the tech sector and the markets that these 
companies serve hurts us all. This lack of diversity informs 
the algorithms that determine whether people get a loan or a 
job, impacts how much people pay for everyday products and 
services. Investigations and studies have shown that these 
algorithms often have biased results and discriminatory 
outcomes.
    It is one reason why I am reintroducing the Accountable 
Capitalism Act with the inclusion of diversity language, to 
push corporations to make more socially responsible decisions. 
Action and accountability are a must.
    And I yield back.
    Mr. Pallone. And, Madam Chair, I would now like to yield a 
minute to Mr. Butterfield.
    Mr. Butterfield. Thank you, Chairman Pallone. Thank you, 
Chairwoman Schakowsky.
    For too long, the promise of the internet age for 
communities of color has been left unfulfilled. Technology is a 
fast-growing and lucrative industry, employing thousands every 
year. However, the rate of racial minorities in tech industries 
has not increased at a sufficient rate. This is unacceptable, 
Madam Chair, considering the number of capable racial minority 
students and workers that are available.
    The problem is exacerbated by insufficient resources in K-
12 schools to HBCUs and often low expectations for our minority 
students. Studies show that African-American children enter 
kindergarten at a competitive disadvantage. To close the gap in 
tech, we must give our students the resources they need to 
compete, not starting in college, but in the earliest stages of 
primary education. Public and private sectors have a 
responsibility to work together to create effective diversity 
and inclusion initiatives.
    The CBC Tech 2020 has been pounding tech companies now for 
years. We are beginning to see modest results.
    And so, I want to thank you for your effort in this space, 
and I yield back.
    Mr. Pallone. Thank you.
    Before I yield to Mr. Rush for the last minute, I just want 
to say, as you could probably tell, Mr. Rush had a subcommittee 
hearing in the Energy Subcommittee on diversity in the 
workforce. And now, we are doing this in the Consumer 
Protection Subcommittee with Ms. Schakowsky. Because the Energy 
and Commerce Committee has jurisdiction over so many sort of 
jobs of the future and areas of the future, I think it is 
particularly important that we address this issue of diversity.
    Mr. Rush, I yield the balance of the time.
    Mr. Rush. I want to thank you, Chairman Pallone, for 
yielding. And I want to thank you, Chairwoman Schakowsky, for 
holding this important hearing.
    In the 1990s, Chicago's O'Hare Airport, the world's busiest 
airport at the time, became the first to install touchless 
faucets. This innovation's promise of making things more 
sanitary and wasting less water were anticlimactic, however, 
when it was shown that these faucets had difficulties in 
recognizing the hands of black and brown Americans. While 
seemingly trivial, this is just one example of the real-world 
impediments that people of color across the Nation face because 
of their lack of representation in the technology industry.
    This same phenomenon has been repeated in facial 
recognition technology that mistakenly identified 28 Members of 
Congress, myself included, in search engines that provide ads 
related to criminal record history when associating, quote, 
``black-sounding names,'' end of quote.
    Madam Chairman, it should be clear that, while the issue 
and emergency in tech may seem like a relatively 
straightforward problem, its ramifications are much bigger and 
go much deeper than it would appear. Madam Chairman, progress 
and innovation must go beyond being just skin deep.
    So, I thank you for holding this hearing and I look forward 
to hearing from the witnesses.
    And, Madam Chair, I would like unanimous consent to submit 
a New York Times article about mistakes in facial recognition 
for the record.
    And thank you. I yield back the balance of my time.
    Ms. Schakowsky. Without objection, so ordered.
    [The article appears at the conclusion of the hearing. The 
prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Thank you, Chairman Pallone, for yielding. And thank you, 
Chairwoman Schakowsky, for holding this important hearing.
    In the 1990s, Chicago's O'Hare Airport--the world's busiest 
airport, at the time--became the first to install touchless 
faucets. This innovation's promise of making things more 
sanitary and wasting less water were anticlimactic, however, 
when it was shown that these faucets had difficulty in 
recognizing Black and Brown Americans' hands.
    While seemingly trivial, this is just one example of the 
real-world impediments that people of color across the country 
face because of the lack of representation in the technology 
industry. This same phenomenon has been repeated in facial 
recognition technology that mistakenly identified 28 Members of 
Congress, myself included, and in search engines that provide 
ads related to criminal record history when searching ``Black 
sounding'' names.
    Madame Chairwoman, it should be clear that while the issue 
of diversity in tech may seem like a relatively straightforward 
problem, its ramifications are much bigger and go much deeper 
than it would appear.
    So, I thank you for holding this hearing and look forward 
to hearing from the witnesses.
    Madame Chairwoman, I ask unanimous consent to submit a New 
York Times article about mistakes in facial recognition for the 
record.
    Thank you, I yield back the balance of my time.

    Ms. Schakowsky. And I want to thank the ranking member for 
her indulgence on going over some time.
    Next, I will yield 5 minutes to Mr. Hudson, who has been 
designated to take the place of our ranking member of the full 
committee, Mr. Walden.

 OPENING STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. Thank you, Madam Chair.
    This is my first opportunity publicly to say 
congratulations on your chairmanship. I look forward to working 
with you and finding common ground where we can work together. 
I know you are going to provide strong leadership.
    Thank you for recognizing me.
    I would say that today we have an exceptional panel of 
witnesses here to examine inclusion and diversity in tech. I am 
proud to represent a district that has many institutions of 
higher education that have recognized the value a diverse 
workforce brings to the table.
    As a member of the Historically Black Colleges and 
Universities Caucus, I have seen firsthand how these 
institutions greatly contribute and prepare our students for a 
21st century workforce. Fayetteville State University is a 
prime example of this leadership. Because of their great track 
record, they are a recent recipient of a $2 million grant from 
the project Strengthening Student Success in STEM. The project 
at Fayetteville State University seeks to build on previous 
successful efforts to increase the participation of African-
American students in STEM disciplines through education and 
research.
    Additionally, we will examine ways to include other groups 
of individuals, including service-disabled veterans and 
military spouses. My district is home to the epicenter of the 
universe, Fort Bragg, home of the Airborne Special Operations 
Forces. Our community is no stranger to supporting these 
groups, and we understand the value that they bring to our 
community.
    Many businesses and entrepreneurs in the tech space have 
started in our community, including RLM Communications, a 
minority-owned and service-disabled, veteran-owned small 
business which has repeatedly been recognized for its 
outstanding work.
    The fact is that a variety of experiences and perspectives 
yield better results. That is exactly what diversity brings to 
the table. That is why I have been proud to work very closely 
with Chairman Rush the past two Congresses on the issue of 
diversity in our 21st century energy economy and preparing our 
students for those jobs, particularly minority students and 
disadvantaged groups. And I look forward to working with my 
colleagues on this important issue here in the tech industry as 
well.
    With that, Madam Chair, I would like to yield the balance 
of my time to my good friend from Montana, Mr. Gianforte.
    Mr. Gianforte. Thank you, Mr. Hudson, for the recognition.
    Getting more Americans working in tech businesses increases 
opportunities for all of our communities, not just in Silicon 
Valley. In Montana, we continually face a workforce 
availability challenge across most businesses. It is 
particularly pronounced, however, in the high-tech sector. In 
the software business that I built in Montana, we were always 
competing to get the best and the brightest. Rather than go far 
and abroad, however, we worked to develop people from within.
    Recently, I had the pleasure of spending a day with fourth-
graders at Bozeman's Emily Dickinson School during their hour 
of code. Allowing the kids time to engage in coding early 
increases awareness and drew new faces into the field. Using 
prewritten code, these students were able to blow up their 
screens and make farm animals talk. They were having fun and 
they were learning at the same time.
    Another successful program for the State has been Code 
Montana. This class brings high school students into the 
computer lab. Students experiment with JavaScript and other 
programs to create their own apps and earn college credit.
    Over 90 percent of Montana parents want their kids to study 
computer science. Unfortunately, only 40 percent of our public 
schools offer this curriculum.
    Our company understood that we needed to grow our workforce 
organically, and we recognized the challenges facing our local 
schools. We started working with the local university, Montana 
State, to develop cutting-edge computer science programs. Other 
entrepreneurs developed classes to develop their employees for 
the next generation. And through organizations like the Montana 
High Tech Business Alliance, we created space to share ideas 
and address challenges facing tech in Montana. We are making 
progress, but there is still a lot more to do. I look forward 
to the testimony and the discussion as we look for solutions.
    Thank you, and I yield back.
    Ms. Schakowsky. Mr. Hudson, do you yield back?
    Mr. Hudson. I do.
    Ms. Schakowsky. OK. Thank you.
    So, the Chair wants to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now, I would like to introduce our illustrious panel 
and our witnesses.
    First, we have Mr. Mark Luckie, digital media strategist 
and former manager at Facebook and Twitter.
    Dr. Joan Ferrini-Mundy, president of the University of 
Maine, welcome.
    Ms. Jiny Kim, Vice President of Policy and Programs at 
Asian Americans Advancing Justice.
    Dr. Nicol Turner Lee, fellow at the Center for Technology 
Innovation, Governance Studies, at the Brookings Institution.
    Ms. Natalie Oliverio, CEO of Military Talent Partners.
    Ms. Jill Houghton, president and CEO of Disability:IN.
    And Mr. David Lopez, counsel at Outten & Golden, LLP, and 
co-dean of the Rutgers Law School.
    And we are missing somebody, right? Did I get everybody? 
OK, I guess it is Natalie Oliverio, who is not here yet.
    OK. So, let's begin, then, with Mr. Luckie, 5 minutes.

  STATEMENTS OF MARK S. LUCKIE, DIGITAL MEDIA STRATEGIST AND 
   FORMER MANAGER, TWITTER AND FACEBOOK; JOAN FERRINI-MUNDY, 
     PH.D., PRESIDENT, UNIVERSITY OF MAINE; JINY KIM, VICE 
   PRESIDENT, POLICY AND PROGRAMS, ASIAN AMERICANS ADVANCING 
JUSTICE; NICOL TURNER LEE, PH.D., FELLOW, CENTER FOR TECHNOLOGY 
INNOVATION, GOVERNANCE STUDIES, BROOKINGS INSTITUTION; NATALIE 
OLIVERIO, FOUNDER AND CHIEF EXECUTIVE OFFICER, MILITARY TALENT 
PARTNERS; JILL HOUGHTON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
  DISABILITY:IN, AND DAVID LOPEZ, CO-DEAN, RUTGERS LAW SCHOOL-
                             NEWARK

                  STATEMENT OF MARK S. LUCKIE

    Mr. Luckie. Chairwoman Schakowsky and members of the 
committee, I thank you for the invitation to participate in 
today's hearing on inclusion in tech.
    From toddlers to seniors, technology has become a vital 
part of the lives of many Americans. However, the way we use 
these tech products is not singular. Gender, age, race, 
ethnicity, sexual orientation, disability, religion, political 
beliefs, geographic location, and other factors can all 
dramatically change the way people interact with a product.
    And yet, the hundreds of thousands of people who are 
creating these technologies remain mostly homogeneous. The tech 
industry continues to be populated by mostly white and Asian 
men. Diversity is an integral part of the fabric of America, 
but that is not reflected in the companies that affect the 
lives of millions of this country's citizens.
    In my time as a manager at tech companies, including 
Facebook, Twitter, and Reddit, I have seen firsthand the issues 
around diversity that continue to plague the industry. The 
concerns surrounding the lack of diversity at U.S. technology 
companies is not just about the fair treatment of their 
employees.
    What is even more alarming is the discrimination built into 
the products emerging from Silicon Valley companies, from the 
use of artificial intelligence software, more likely to flag 
black defendants as future criminals; Asian-Americans being 
charged higher prices for online test prep; apps lightening the 
skin of users to make them more attractive; Amazon's recruiting 
tool penalizing resumes that included the word ``women's,'' to 
Facebook's real-name policy that discriminates against Native 
American names and transgender people.
    In many of these instances, the transgressions were 
unintentional and later corrected, but most of these oversights 
can be mitigated by employing and retaining staff from diverse 
backgrounds in an environment that welcomes all voices. 
Statistically, tech companies are not doing that. In 2017, at 
eight of the largest tech companies in the U.S., women, on 
average, made up a little over 30 percent of the staff; 4.2 
percent were black, and 6 percent were Latinx, according to the 
company's self-reported numbers. While there is a 
disproportionately high number of Asians who work in tech, 
industry data shows they are the least likely to attain a 
leadership role.
    One of the common explanations of why there is a lack of 
diversity in Silicon Valley is the pipeline. Tech companies 
argue that there are not enough women and people of color 
graduating with degrees in computer science. However, there are 
more women and people of color with tech-related degrees that 
are graduating than are actually being hired.
    The discussions around the pipeline also ignore an obvious, 
but overlooked fact. Most jobs at tech companies are not in 
engineering. At least one-third of the jobs listed in the 
career websites of many of the top tech companies are on 
nonengineering teams.
    There is a common refrain in Silicon Valley: ``We can't 
lower the bar.'' This term is widely understood to infer that 
black, Latinx, and women candidates are less qualified. Their 
hiring would be a token, putting them over more qualified white 
or Asian male candidates, who in some cases are actually 
equally or sometimes less qualified.
    When women and people of color are hired, they often face 
unwelcoming environments that upend the great work they came to 
do. Half of all diverse employees said they see bias as part of 
their day-to-day work experience, according to a recent study. 
Women in tech are leaving the industry at nearly double the 
rate as men. A person over 40 at a tech company is a rarity, 
and even more so if they are not in a managerial position.
    Despite all these challenges, we are thriving. We are 
leaders impacting our communities and executing the ideas that 
are transforming the landscape of technology and beyond. Tech 
companies need to recognize the greatness or risk losing some 
of the industry's most brilliant minds.
    A study by McKinsey found that ethnically diverse companies 
were more than 35 percent more likely to outperform their 
industry counterparts. And companies in the bottom quartile, 
both for gender and for ethnicity and race, are statistically 
less likely to achieve above-average financial returns.
    Superficial proclamations from corporate leaders are not 
enough. It is time to stop saying we can do better and to start 
being better.
    For Congress and this committee, more oversight of this 
Nation's tech companies is absolutely necessary. Continuing to 
learn about how the industry functions in hearings like this 
will lead to better economic solutions for all Americans.
    Tech companies must do their part, step up, and reflect the 
ideals of equality, democracy, and justice for all, on which 
this country was founded.
    Thank you for this opportunity to share, and I look forward 
to answering questions you may have.
    [The prepared statement of Mr. Luckie follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you very much.
    Next, I want to invite Dr. Joan Ferrini-Mundy for 5 
minutes.

                STATEMENT OF JOAN FERRINI-MUNDY

    Dr. Ferrini-Mundy. Thank you. Good morning, Chairman 
Schakowsky, Ranking Member Rodgers, and members of the 
subcommittee. Thank you for inviting me here today.
    My name is Joan Ferrini-Mundy, and since July of 2018, I 
have been the president of the University of Maine and the 
University of Maine at Machias.
    I plan to comment on the roles of institutions of higher 
education in the preparation of a diverse STEM and technology 
workforce that is ready to solve problems and innovate through 
diversity, and to provide pathways, especially in STEM, for 
diversity.
    The mission of the University of Maine is to advance 
learning and discovery through excellence and innovation in 
undergraduate and graduate academic programs while addressing 
the complex challenges and opportunities of the 21st century 
through research-based knowledge.
    Our population on our campus of about 11,000 students in 
Orono, Maine, is 51 percent women. Our geographic diversity is 
above the national average, but we are below the national 
average in racial and ethnic diversity. White students comprise 
about 82 percent of our student body, and 12 percent of our 
students are black or African-American, Hispanic, or Latino, 
and other races and ethnicities.
    In addition to diversity of race, gender, and ethnicity, at 
U Maine we have diversity on the dimensions of age, sexual 
orientation, socioeconomic status, religion, disability, 
disciplinary background, veteran service, and experience. In 
Maine, 47 percent of precollege students are economically 
disadvantaged. Twenty-six percent of our entering students are 
first-generation college students.
    For some college students, the diverse environments of 
higher education are their first experience with people 
different from themselves and from their home communities. Our 
institutions need to be skilled and effective in supporting 
their success and opening up their pathways into the tech 
industries and into the STEM fields more generally. At the 
University of Maine, we have more than 40 different 
organizations and initiatives to support our diverse students.
    Scott Page has argued that people from different 
backgrounds have varying ways of looking at problems. There is 
certainly a lot of evidence that people's identity groups, 
ethnic, racial, sexual, age, matter when it comes to diversity 
in thinking. And as we have heard, their solutions to problems 
will be equitable and more effective.
    One function of the university is to prepare leaders and a 
workforce for tomorrow. And universities across the country are 
doing so with inclusive, cross-disciplinary STEM programs, 
research to better understand and ensure inclusion, support 
services to promote student success, curriculum and instruction 
designed to build from the diversity on our campuses and to 
engage diverse students, and through partnerships.
    Through the University of Maine, for example, students, 
faculty, and staff from around the world and from very diverse 
backgrounds come together in our Graduate School for the 
Biomedical Sciences and Engineering to participate in 
convergence research. They work in molecular and cellular 
biology, bioinformatics and genomics, toxicology, neuroscience, 
and biomedical engineering, to address some of tomorrow's 
biggest challenges. And the diversity that they bring to those 
challenges is absolutely essential.
    Our campus Center on Aging promotes and facilitates 
activities on aging and aging-related education and training 
programs. Our Center for Community Inclusion and Disability 
Studies partners with the community to enhance the lives of 
individuals with disabilities and their families.
    In Maine, within 1 year of high school graduation, 50 
percent of economically disadvantaged youth are enrolled in 
higher education compared to 75 percent of noneconomically 
disadvantaged youth. Enabling all students to be able to attain 
degrees is critical for the diversity that we discuss here 
today. The University of Maine is addressing this through a new 
First Year Student Initiative.
    Some of our focus is directly in the curriculum. With 
funding from the National Science Foundation INCLUDES Program, 
U Maine anthropologist Dr. Darren Ranco and colleagues are 
developing the Wabanaki Youth in Science Program to bridge 
inclusion in postsecondary education through the sciences. The 
team is developing a course that brings together traditional 
ecological knowledge and Western science for undergraduates. 
The success of this ongoing effort will depend upon diversity 
and student engagement with ideas that are unfamiliar and with 
experts who bring diverse experiences.
    I would like to also mention that the University of Maine 
system partners with Educate Maine in a project to match 
students with internships and full-time jobs in computing 
occupations. And we hope to bring underrepresented minorities, 
women, and rural students to pursue a variety of experiential 
learning opportunities.
    In closing, our Nation's diversity is a resource for 
learning and for solving the most complex problems of our 
times. As technologies and advances lead to changes in our 
workplace, new generations of STEM professionals will bring 
their collective diversity to bear on improvements and 
innovations. U.S. higher education has a key role to play in 
ensuring the pathways for inclusive learning environments, so 
that those professionals are ready to make a difference.
    Thank you for the opportunity to speak with you today.
    [The prepared statement of Dr. Ferrini-Mundy follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Right on the dot. Thank you.
    Ms. Jiny Kim, you are now recognized for 5 minutes.

                     STATEMENT OF JINY KIM

    Ms. Kim. Good morning, Chairwoman Schakowsky, Ranking 
Member Rodgers, and members of the subcommittee. Thank you for 
the opportunity to testify on the importance of diversity in 
the technology sector.
    My name is Jiny Kim, and I am vice president for policy and 
programs at Asian Americans Advancing Justice, AAJC, a national 
civil rights organization dedicated to advancing the civil and 
human rights of Asian-Americans and building and promoting a 
fair and equitable society for all.
    The economic rationale for diversity has been well-
documented in numerous studies. Companies in the top quartile 
in terms of racial diversity are 35 percent more likely to have 
financial returns higher than the national median in their 
industry. But, despite this economic reality, women and people 
of color have historically been excluded from both the rank and 
file and from positions of leadership within tech companies. 
According to the EEOC, African Americans and Latinos were 
underrepresented in the tech sector by 16 to 18 percentage 
points compared with their presence in the American labor force 
overall.
    While there is a higher representation of Asians in the 
tech workforce, they are still underrepresented in nontechnical 
roles compared to their presence in technical roles, and they 
are disproportionately left out of C-suite positions.
    While the effort companies are making to provide 
transparency in their diversity data should be appreciated, 
there remain issues in how that data is reported. Asian-
Americans and Pacific Islanders include over 50 different 
ethnic groups and over 100 languages and dialects. Yet, 
companies fail to disaggregate the data, resulting in 
overlooking the most underrepresented and historically 
marginalized AAPI communities with lower levels of educational 
attainment, higher rates of poverty, and larger populations 
with limited English proficiency. When these groups are left 
out, those efforts by industry and other stakeholders to 
encourage recruitment and build pipelines from diverse 
communities remain incomplete.
    Not surprisingly, tech companies have developed digital 
tools to review the myriad applications for positions in their 
companies. The problem with this approach is that the ideal 
profile being used as a model reflects a majority white culture 
and the resulting unconscious bias.
    Issues are not limited to recruitment, and greater effort 
is also needed to retain employees of color and women. Some 
tech companies have taken the important step of reporting 
attrition rates of employees from diverse backgrounds, as well 
as supporting their employees through mentorship programs and 
employee resource groups. We applaud these efforts as positive 
steps toward understanding what is needed to retain diverse 
staff and eventually place them in the leadership pipeline.
    Now it is a common understanding among civil society 
organizations that the prejudice, ignorance, and the hate we 
combat in real life live in the digital space as well. Tech 
companies that foster a majority white male employee base feed 
their own biases into the machines they create.
    In the criminal justice system, we see disturbing examples 
of algorithmic bias. Courts have begun using predictive 
software to sentence convicted individuals. ProPublica 
published an account of two individuals who separately 
committed shoplifting. One was African-American, and the other 
was white. When a sentencing algorithm was used to predict the 
likelihood of each committing a future crime, the African-
American individual was rated a higher risk, even though she 
had only committed misdemeanors as a juvenile, while the white 
individual had previously been convicted of attempted armed 
robbery. Two years later, the computer algorithm was proven 
wrong, with only the white individual having committed a 
felony.
    Further alarming is facial recognition technology. In 2015, 
this technology came under scrutiny when software incorrectly 
categorized photos of African Americans as primates. Despite 
this incident, companies have still failed to take adequate 
action. Studies published as recently as last year found that 
facial recognition algorithms had significantly higher error 
rates detecting the gender of darker-skinned individuals 
compared to lighter-skinned individuals.
    Given the magnitude of the impact of lack of diversity in 
tech, a serious culture shift must take place. And civil rights 
organizations like Advancing Justice, AAJC, have already begun 
to play their part. Last month, we joined more than 40 advocacy 
groups in sending a letter to congressional leaders urging them 
to put civil and human rights at the center of the digital 
privacy discourse. And tech companies have begun engaging our 
organizations on diversity and inclusion issues and taking part 
in civil rights audits.
    The tech sector has transformed the way we communicate and 
connect with one another. We must ensure that the development 
of technological products, services, and experiences leave no 
one behind and do not harm communities of color. In order to do 
so, employees who create these innovative tools must reflect 
the diversity of the communities that the companies seek to 
reach.
    Thank you for this opportunity.
    [The prepared statement of Ms. Kim follows:]\1\
---------------------------------------------------------------------------
    \1\ A February 2017 report entitled ``Breaking the Mold: Investing 
in Racial Diversity in Tech'' submitted by Ms. Kim has been retained in 
committee files and also is available as part of her written testimony 
at https://docs.house.gov/meetings/IF/IF17/20190306/108901/HHRG-116-
IF17-Wstate-KimJ-20190306.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Schakowsky. Thank you.
    We do have that letter in the record from last year, from 
the last hearing rather. So, thank you for that.
    And next, I want to recognize Dr. Nicol Turner Lee for 5 
minutes.

                 STATEMENT OF NICOL TURNER LEE

    Dr. Turner Lee. Thank you. Good morning, Chairwoman 
Schakowsky, Ranking Member Rodgers, and members of the 
subcommittee.
    I am encouraged by your interest in this topic, 
particularly as some of the members of the subcommittee have 
worked to diversity your own staff.
    Let me start just by stating again what Congressman Lujan 
summarized from my written testimony. The absence of diversity 
among the people who make decisions around products and 
services, along with the markets that these companies and the 
tech serve, will ultimately lead the U.S. to abysmal failure.
    With the U.S. population predicted to become minority white 
in 2045, tech companies that do not fully embrace diversity 
will ultimately compromise the quality of future technologies 
and make it difficult for all people to gain the benefits of 
the digital revolution.
    Today, existing and emerging technologies are helping to 
solve complex social problems through automation, advanced 
scientific research, and artificial intelligence, while 
disrupting legacy industries and widely accepted norms. Yet, 
despite this growth, African Americans and Hispanics remain 
vastly underrepresented in the computer and mathematical 
fields, 7.9 percent and 6.8 percent, respectively, compared to 
whites, which are over at least 12 to 14 percent.
    In fact, African Americans and Hispanics are the most 
underrepresented in certain tech jobs by nearly 50 percent. 
Less than 5 percent of the tech workforce in social media 
companies is African-American, with similar findings for 
Hispanics and certain Asian-American populations.
    The irony here is that 35 percent of Hispanics and 24 
percent of African Americans have no other online connection, 
except through their smartphones and mobile devices, compared 
to 14 percent whites, but they are connected to the 
applications and the platforms that actually run off these 
devices. Without them, they have no other way to live, learn, 
earn, vote, and network. These mismatched realities also make 
these populations most susceptible to digital disruption when 
the jobs that they once held are automated and eliminated or 
predatory products and services are marketed to them online on 
an ongoing basis.
    So, this is why diversity matters. In certain sectors of 
tech, there is a talent pipeline problem, leaving empty pockets 
of workforce diversity in board, C-suite, and other leadership 
positions. And this human resource problem ultimately impacts 
the design, implementation, and evaluation of products and 
services, some of which are collectively profiling, 
surveilling, and even discriminating against protected classes. 
That is why we are here today.
    I am going to just summarize in my closing remarks three 
things that I have actually put forth that I think Congress and 
the tech sector should do.
    First, tech companies must be more deliberate and 
systematic in the recruitment, hiring, and retention of diverse 
talent and change the sources for where they find talent of 
color. Historically Black Colleges and Universities and 
Hispanic-serving institutions are often discounted in remedying 
pipeline concerns. Yet, 22 percent of African-American college 
students graduate from one of the 101 HBCUs and offer some of 
the Nation's most gifted talent which are prepared to work in 
Silicon Valley. Yet, those colleges are not the source for 
where we actually look for talent.
    In addition to that, they may be challenged by the 
resources that HBCUs and HSIs find. The appropriations that go 
to those universities and colleges are often comparable to 
others; therefore, reducing their ability to entice a tech 
center to actually hire them. Congress, we must do better than 
that.
    Second, tech companies must explore ethical and 
collaborative frameworks that explore the intended and 
unintended biases of algorithms and deploy solutions that quell 
these biases. With big data being collected in real time from 
users at all times, people are now being denied credit based on 
their web-browsing history or aggregated predictive analytics 
are wrongly determining a person's suitability for employment 
or applying a longer prison sentence. These are deplorable, and 
we need to work together, as my colleagues have said, to 
increase the pipeline, so we can make less of these mistakes. 
Even among members of the Congressional Black Caucus, facial 
recognition technology wrongly associated them with arrest 
records 90 percent of the time, and I know my distinguished 
members of the CBC aren't those people.
    And finally, I would say this inattentional blindness is a 
problem in the tech sector that should no longer be tolerable. 
The strength of the online economy proves that it is no longer 
insulated from the guardrails designed for other regulated 
industries, especially those that establish baseline 
protections against discrimination.
    Congress should consider review and the potential 
modernization of civil rights law and apply them to certain 
online cases. We did it in the case of housing. We did it in 
the case of civil rights. We have done it in the case of equal 
opportunity, and we should do it in the online space.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Turner Lee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you very much.
    Next, we will recognize Ms. Natalie Oliverio. You are 
recognized for 5 minutes. Welcome.

                 STATEMENT OF NATALIE OLIVERIO

    Ms. Oliverio. Thank you so much for allowing me to testify 
before you this morning.
    My name is Natalie Oliverio, and I am a post-9/11 Navy 
veteran, the founder and CEO of Military Talent Partners.
    And too frequently, too often, veterans and military 
spouses are left out of the diversity conversation. It doesn't 
naturally occur to you to think of them as diverse individuals, 
but less than 1 percent of our country today serves. So, when 
you serve in the military or you are a spouse supporting your 
significant other as they serve, time doesn't stand still. The 
world keeps moving without you while you are serving your 
country. The military is its own business and it has ever job 
type, skill, and capability to run on its own, and those skills 
really prepare veterans to do anything.
    But I talk with companies every single day who feel that 
they don't have jobs suitable for veterans. They don't have 
security-type or protective work, which is what they believe 
that veterans are qualified and capable of doing. There have 
been massive steps forward in the programs offered, the 
trainings available, and the abilities that veterans can then 
leverage to their second careers. But not everyone knows about 
them because they are just left out of the conversation, even 
more so for military spouses.
    For veterans, unemployment isn't really the issue anymore. 
It is more of underemployment. Meaningful careers make all the 
difference. From an extreme case of contributing to 22 suicides 
a day in the veteran communities, meaningful careers can put a 
stop to that. Meaningful careers for military spouses help them 
provide for their families when today's economy really needs a 
two-income household. Putting your life on hold to support your 
spouse as they are service member is a major sacrifice, but in 
today's job market they are seen as risky hires or job-hoppers, 
but that is not the case at all. So, we have a lot of 
stereotypes to overcome, but those challenges can be overcome 
by adding veterans and military spouses to the conversations 
around diversity and inclusion.
    I, myself, had a very difficult transition from active duty 
post-9/11, and I thought I had it all figured out, but I didn't 
know what kind of resources were available to me and what kind 
of possibilities existed. So, I struggled for years to find my 
niche, and that has been my motivation to lead the way in 
mentorship and coaching for all active-duty transitioning 
service members, military spouses, and Gold Star families, to 
help them find and obtain the meaningful careers for them.
    But that is just one small step. There is a lot of work to 
be done. It is really up to Congress to lead the way for more 
veteran initiatives, and not just the initiatives and programs 
that are benefitting us today, but to make it known, 
widespread, so there is no question about the capabilities that 
a military spouse or a veteran brings to the corporate world 
today.
    Thank you so much.
    [The prepared statement of Ms. Oliverio follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you.
    And now, Ms. Jill Houghton is recognized for 5 minutes. 
Thank you.

                   STATEMENT OF JILL HOUGHTON

    Ms. Houghton. Chairman Schakowsky, Ranking Member McMorris 
Rodgers, members of the committee, thank you for the 
opportunity to testify today.
    My name is Jill Houghton. I am the president and chief 
executive officer of a nonprofit called Disability:IN, and we 
exist to help business achieve disability inclusion and 
equality. We have over 50 affiliates across the country. We 
represent more than 170 major Fortune 1000 corporations, and 
almost one-quarter of those corporations operate within the 
technology industry.
    My testimony is rooted in my personal experience. I am a 
female leader and I have a nonapparent disability. And I really 
want to focus on three issues today. I think it is really 
important that you remember that disability is an important 
component of diversity. No. 2, disability drives business 
performance. And No. 3, disability inclusion drives innovation.
    Disability knows no stranger. Race, gender, ethnicity, 
sexual orientation, gender identity, it can happen to any one 
of us at anytime in our life. According to the Centers for 
Disease Control and Prevention, 1 in 4 Americans live with a 
disability, and disability is often forgotten. We are said to 
be the silent ``D'' in diversity. And yet, there are 61 million 
Americans living with disabilities. So, we are an integral part 
of diversity.
    When the Americans with Disabilities Act was passed in 
1990, that was opportunity, economic opportunity, for people 
with disabilities, but the one thing that it couldn't do was 
legislate attitudes. And so, we know that, when we look at the 
Bureau of Labor Statistics in January of 2019, that the labor 
force participation rate for people with disabilities was 20.5 
percent versus people without disabilities of 68.3 percent.
    At Disability:IN, we have committed our self to helping 
corporate America with data and insight. In that spirit, we 
have joined forces with the American Association of People with 
Disabilities to create something called the Disability Equality 
Index. This is the Nation's trusted disability inclusion 
benchmark, because business wants to do better. and it looks at 
things like leadership and culture, employment practices, 
community engagement, enterprisewide access, and supplier 
diversity. The technology industry actively participates in the 
DEI, and we are growing by 30 percent every year.
    The companies that score an 80 or above are publicly 
acknowledged on our website at disabilityequalityindex.org and 
ranked as the best place to work for people with disabilities. 
But I will tell you, even the companies that are scoring a 
hundred would be the first to tell you that they don't have it 
all figured out, that they want to do better, but there is a 
lot more work to do.
    Using the Disability Equality Index, we teamed with 
Accenture, because what we know, if we are going to take 
disability inclusion and diversity to the board room, to the C-
suite, we need the business case. So, we teamed with Accenture. 
They studied the first 4 years of data. They worked with 
Vanguard and algorithms. What they found in getting to equal 
the disability inclusion advantage is that, on average, 
companies, leading companies, that are driving disability 
inclusion rated 28 percent in higher revenue, double the net 
income, and 30 percent higher economic profit margins than 
their peers. Disability inclusion impacts business performance.
    With that concrete evidence, we confirmed that disability 
inclusion is good for business and investors are viewing it as 
the next frontier in environment, social, and governance 
investing. We rolled out that report on the floor of the Stock 
Exchange and Wall Street. And the Comptroller DiNapoli from New 
York State has issued a letter--he runs the third largest 
pension fund in the Nation--to the top Nasdaq companies calling 
on them to ask what they are doing around disability inclusion.
    And last, disability inclusion drives innovation. We like 
to say that inclusion and disability, at the nexus is 
accessibility, and without accessibility, we have got nothing. 
And so, that is very important, that the tech sector continue 
to focus on building accessibility and driving disability 
inclusion.
    Thank you.
    [The prepared statement of Ms. Houghton follows:]\2\
---------------------------------------------------------------------------
    \2\ A report entitled ``The 2018 Disability Equality Index: A 
Record Year for Corporate Disability Inclusion and Leadership'' 
submitted by Ms. Houghton has been retained in committee files and also 
is available as part of her written testimony at https://
docs.house.gov/meetings/IF/IF17/20190306/108901/HHRG-116-IF17-Wstate-
HoughtonJ-20190306.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Schakowsky. And next, Dean David Lopez, you are 
recognized for 5 minutes.

                    STATEMENT OF DAVID LOPEZ

    Mr. Lopez. Thank you very much, Chairwoman Schakowsky, 
Ranking Member Rodgers, members of the subcommittee, for 
inviting me to this very important hearing.
    My name is David Lopez, and I am currently the co-dean of 
Rutgers Law School in Newark. Over the last 100 years, Rutgers 
Law School has stood as an exemplary model of a public 
institution that both welcomes and promotes diversity, 
meaningful sociability, and leverages the law to achieve 
equality of opportunity in the public, private, and nonprofit 
sectors. We believe we have normalized the idea of opportunity.
    From 2010 to 2016, I was the longest-serving general 
counsel of the U.S. Equal Employment Opportunity Commission, 
twice nominated by President Barack Obama and twice confirmed 
by the U.S. Senate. I was the first Latino selected to this 
position, and in the capacity as general counsel, I led the 
litigation program charged with enforcing Federal 
antidiscrimination statutes nationwide. So, I come here both as 
an educator and as a lifelong civil rights practitioner.
    During the last 30 years, technology has transformed our 
economy and changed our daily lives--how we work, how we learn, 
how we make decisions, how we play. The tech industry has 
produced remarkable tools and resources, providing us with 
social media and new ways to connect with others, as well as 
instant access to huge amounts of information.
    But, as we have heard, it is no secret that the tech 
industry has suffered with the persistent problem of the 
absence of diversity. We have heard many of the Members here 
today, from many of you, from many of the panelists. And this 
all comes at a time when tech jobs are growing rapidly in our 
economy.
    To use the words of a very common phrase today, ``The tech 
industry operates in a bubble.'' It operates in a bubble. It 
operates without the cross-currents of thinking, from 
reflecting the beauty of this country.
    Of course, ideals of living in a discrimination-free 
society with equal opportunity, these are bedrock principles 
central to social mobility and the American dream. The 
elimination of arbitrary barriers ensures that hard work 
matters, that investing in your dreams matters.
    It is well established that racial, gender, and other types 
of diversity in the workplace has a positive influence on 
teams, and we have heard many of those studies. Diverse teams 
are more productive. Teams that are made up of individuals of 
diverse backgrounds are more innovative, generally make more 
error-free decisions. Further, there is convincing evidence 
that increased diversity in the workplace leads to higher 
revenues and increases innovation.
    One of the problems I believe that the tech industry faces 
is the problem of implicit bias. The science of implicit bias 
is recognized as the automatic associations of stereotypes or 
attitudes about a particular group. One study demonstrated 
implicit bias by showing that resumes with more white-sounding 
names received requests for interviews 50 percent more 
frequently than the same resume with more African-American-
sounding names, but with equal or better qualifications.
    A number of recent studies also suggest that isolation and 
bias influenced women leaving STEM careers. Often, it is not 
simply the choices that employees make that influence the 
careers, but the workplace environment that drives denial of 
opportunity.
    Now let's talk a little bit about the products. And we have 
heard many of the stories here today about the end results of 
perhaps the absence of diversity. Big data analytics allows 
your employer to know whether you are pregnant even before you 
disclose it. That is against the law. In one high-profile 
incident, one retailer, drawing on consumer data, knew a young 
woman was pregnant before her parents did. Software used by 
many police departments across the country that determines the 
likelihood of recidivism has been shown, as discussed today, to 
have a bias against African Americans. Companies are using 
algorithms to determine who is likely to default on a loan or 
recommit crimes, despite the algorithm's tendency to reflect 
society's bias towards racial minorities.
    So, all of this demonstrates that this is a very important 
discussion. Diversity is important not only because it is the 
right thing to do and it is a reflection of the American dream; 
diversity also has consequences on these tools and these 
products of predictive analytics and artificial intelligence 
rapidly changing our environment, and the way that we live and 
that we play in our society.
    The public university has a very special role in addressing 
these issues because a public university provides an 
opportunity for interdisciplinary learning, for computer 
science, that enshrines values of equal opportunity, fairness, 
competition, and justice.
    And I welcome your questions. Thank you.
    [The prepared statement of Mr. Lopez follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Schakowsky. Thank you so much. This has been really a 
wonderful panel that I think underscores how diversity is not 
just a side issue.
    And now, we will move to a number of questions. Each Member 
will have 5 minutes to ask questions of our witnesses, and I am 
going to start by recognizing myself for 5 minutes.
    I just want the panel to know that there are a lot of 
things going on today. The fact that there are a number of 
empty chairs is not indicative of lack of interest in what you 
are saying. All of your statements will be in the record, and I 
expect people will be coming in and out.
    So, I am going to focus on women. Just 31 percent of the 
employees at Facebook are women, and that's also true at Apple. 
The number of women who work in technical roles at these 
companies is even lower. We also see that the female share of 
computer science degrees has actually dropped from 28 percent 
to 18 percent between 1993 and 2016, while at the same time the 
tech industry is booming and continuing to grow at an 
unprecedented rate.
    This isn't a problem that will be solved overnight. But, 
starting at the top, getting more women into visible technical 
positions, providing role models for young women, college 
students deciding on choosing a technical path of study, seems 
to be a very good strategy.
    So, Dean Lopez, intentional efforts to reduce the bias that 
is not necessarily deliberate in recruiting have dramatically 
increased opportunities for women in other fields. For example, 
orchestra auditions where the musician's gender was hidden has 
increased the hiring of women by over 25 percent. What are some 
ways that tech companies can change their recruitment 
techniques in order to adapt to the need of diversity in the 
workforce?
    Mr. Lopez. I thin the most important thing a tech company 
can do really is provide meaningful leadership at the top. If 
tech companies want to be diverse, they need to have the 
leadership making very clear pronouncements that they will 
examine every aspect of the work culture, the evaluation 
system, the recruitment system, the promotion system, to make 
sure that it is free from gender bias. And that means looking 
at issues of implicit bias.
    You see this particularly in pay disparities based on 
gender, where you often have systems that are almost 
systematically stacked against women. So, it really takes a 
clear statement from leadership that diversity is important, 
that inclusiveness is important.
    The other thing that is really important is to really 
examine how you conduct recruitment. Recruitment is often based 
on sort of the tap on the shoulder, the old boys' club. It is 
really important, I think, for high-tech companies to examine 
their networks. As the co-dean at a public university, as a 
graduate of Arizona State University, I certainly understand 
the grit and the talent that you get out of those universities, 
but often the Silicon Valley recruits in a very, very narrow 
way, right?
    And then, the last thing I want to mention is that, as 
diversity relates to the end product, we have seen Amazon, for 
instance, they had to stop a hiring tool because they found out 
that the hiring tool itself was biased against women. The 
algorithms they used were biased against women.
    We have seen lawsuits recently involving Facebook's 
dropdown box where women were excluded from certain job 
advertisements in traditionally male industries. So, there is a 
connection between the two.
    Ms. Schakowsky. Thank you.
    Funding for female entrepreneurs is minuscule compared to 
men. Women receive just 2.2 percent of the venture capital 
investment. This is despite the fact that women-founded 
businesses generate more than two times the revenue per 
investment dollar than businesses founded by men.
    Ms. Kim, what do you think is happening here? What is going 
on?
    Ms. Kim. Much like the other economic reasons for having 
diversity, you are seeing something that doesn't make sense. It 
is the system that exists that needs a complete culture shift 
in how to--I mean, whether it is employee recruitment or 
whether it is investing in programs to recruit from diverse 
populations, as well as investing in building those 
opportunities for entrepreneurs as well. It doesn't make sense, 
what is going on, because there is a clear economic rationale 
to hire and promote from communities of color, hire and promote 
women, and invest in businesses led by people of color and 
women.
    And so, we call on the tech sector to examine what within 
the culture is going on, and, also, to engage with civil 
society organizations, and civil rights organizations, in 
particular, to talk to us about what is going on in the hiring 
and investment practices that results in these very harmful 
impacts.
    Ms. Schakowsky. Yes, I wish I could get to--5 minutes goes 
really fast. Maybe at the end I can open it up to others on the 
panel. But, in the meantime, I want to yield for questions to 
our ranking member, Ms. McMorris Rodgers.
    Mrs. Rodgers. Thank you. Thank you, Madam Chair.
    And thank you, everyone, for being here. Excellent 
testimony today.
    I wanted to start with Ms. Houghton. I wanted to ask you to 
speak some more to how companies can build an inclusive 
workforce for people with disabilities, and address both the 
physical and intellectual disabilities, and what the benefits 
are that you see as a result.
    I also wanted to ask you to speak and share some of the 
examples of the impact of having people with disabilities in 
the workforce and how that ensures products and services are 
accessible to everyone.
    Ms. Houghton. Thank you, Congresswoman McMorris Rodgers.
    I think that what we are seeing is really driven in tech. 
It is companies like Microsoft and SAP and DXC Technology that 
have created these inclusive hiring programs that are based on 
the premise that there is bias in their hiring process, and 
they want to tear down those walls. And so, they have created 
these hiring programs where they are sourcing talent with 
disabilities, with all different kinds of disabilities, and 
bringing them in, perhaps rather than in a typical interview, 
coming in and maybe doing a two-week program. And maybe the 
interview is with LEGOs and like a different kind of a process.
    Because what they recognize is that the traditional models 
are screening the talent out. And so, they have grown these 
inclusive programs, these Autism at Work programs, and they are 
putting everything out in the public domain to try to help 
their peers.
    I think what they are experiencing, as a result of this, is 
that this talent is coming in and helping them develop new 
products and tools and make things more accessible. Filing for 
patents, things that wouldn't have happened if they hadn't torn 
down those walls.
    Mrs. Rodgers. Would you speak briefly as to the impact of 
job coaches or accommodations, the internships, just very 
briefly?
    Ms. Houghton. Yes, people with disabilities, we come in 
different shapes and sizes. The on-the-job supports when 
individuals have the opportunity to perform with the right 
support, they far exceed their peers. Their productivity, their 
decrease in absenteeism, they stay.
    Mrs. Rodgers. That is great. Thank you. Thank you for being 
here.
    Dr. Ferrini-Mundy, I wanted just to ask you to speak a 
little bit more about how you see the commitment to science, 
technology, engineering, and math helping create the pipeline, 
and are you seeing that translate into the opportunities with 
the tech companies, in particular?
    Dr. Ferrini-Mundy. Thank you.
    Absolutely. The STEM field, science, technology, 
engineering, and mathematics, writ large, are often a key 
foundation for people who will pursue careers in the technology 
areas. And so, making certain that that basic preparation--and 
I will speak specifically about mathematics; it is my own 
field. And also, it is an underpinning for so much of what goes 
on in the tech industry.
    Making certain that our approach to engaging people in 
mathematics, to instruction, is inclusive, that it attends to 
differences and draws on those, and supports students to be 
successful, to draw on their grit, because mathematics is not 
necessarily seen as an easy kind of pursuit.
    To continue, I wanted to just tack on a little bit on these 
questions about internships and how companies can be more fully 
engaged with diversity. Universities can be wonderful partners 
and are across our Nation, our public universities, in 
particular, with the private sector. And we have found that U 
Maine, for example, in our engineering college, that a large 
percentage, maybe 75 percent of our students have actual 
internships in a variety of high-tech sectors, and those 
internships turn into positions. And so, getting to know 
students and making opportunities for diverse students early on 
is really crucial to this whole business.
    Mrs. Rodgers. Thank you.
    And finally, Ms. Oliverio, would you speak, just in the 20 
seconds I have left, just what do you see veterans--what are 
the unique qualities that veterans can add to this 
conversation?
    Ms. Oliverio. Veterans are so unique. They are natural 
leaders and that leadership is cultivated in an authentic way 
throughout their military service. They are resilient. They can 
adapt and overcome to any situation and any challenge. If tech 
can just meet them where they are, they will be able to 
diversify on their own.
    Mrs. Rodgers. Great. Thank you all.
    I yield back.
    Ms. Schakowsky. I recognize Representative Castor for 5 
minutes.
    Ms. Castor. Thank you, Chairwoman Schakowsky.
    Sharing diversity and inclusion in the technology sector 
workforce and products is critical to a thriving industry. 
Unfortunately, the U.S. Congress and the industry itself have 
overlooked this topic for too long. So, I am glad we are 
holding this hearing today.
    Thank you very much, and I want to thank the witnesses for 
your expert advice on what Congress can do to make the workers 
in the tech sector more representative of America. Because I 
believe, when that happens, business will thrive and consumers 
will benefit.
    In addition to your testimony, I have seen report after 
report that has been rather troubling about technology 
adversely affecting communities of color. Companies have given 
different prices and credit card deals to consumers based upon 
location, which can mean white neighborhoods are offered better 
deals and prices than minority neighborhoods. Supposedly 
unbiased algorithms that companies use for a variety of 
different processes have been shown to produce discriminatory 
results. Facial recognition software often cannot accurately 
recognize people of color.
    Ms. Turner Lee, these are just a few examples, but they 
illustrate a larger pattern in tech of discriminatory products 
and processes. What are some of the specific policies the tech 
industry could adopt right now to fix this, and what should 
Congress be doing?
    Dr. Turner Lee. Yes, thank you for just acknowledging all 
those examples. Because as we go deeper and deeper into the 
tech space, I think we are going to see more of these.
    I think it is important, as I recommended and, again, put 
into my written testimony, that we think about a guardrail that 
we have now, which are the antidiscrimination laws. I think as 
we see more of these offers become discriminatory or produce a 
discriminatory output, people being denied credit because of 
the fact that their web-browsing history suggests that they are 
not creditworthy, higher education using algorithmic 
decisionmaking on whether or not kids should be accepted into 
college, those types of things have, I think, implications that 
we have not really looked at in connecting the physical and the 
digital spaces.
    So, I would implore Congress to just have a review and 
analysis of what those nondiscrimination laws are and see if 
there is any connection to what we actually see in the digital 
space that can generate these unintended consequences. I think 
that is the first.
    I would also just add real quickly, I think there will be 
innocuous cases, as it was suggested, where the training data 
may not be correct and companies themselves will self-regulate. 
I think those conversations still need to be had.
    Google voluntarily removed payday ads from their search 
query, just to make sure that low-income people were not being 
dragged into this pathway of inequality. I think we need to see 
more of that, and I think Congress can actually use the bully 
pulpit in some ways to suggest that those conversations should 
happen, as well as collaborations with civil society, who 
actually see the outputs of this.
    It is the technologist that oftentimes sits within the 
vacuum, and civil society groups like AAJC, then, sort of have 
to clean it up. And then, Congress has to somehow get in the 
middle of these conversations.
    I think more collaborative dialog to best understand how 
these ecosystems work and the application of guardrails that we 
have in our favor can actually help quell some of these biases.
    Ms. Castor. Thank you very much.
    Mr. Luckie, isn't there also a role for people of diverse 
backgrounds in decisionmaking positions in these tech 
companies? And how do we encourage that and what are the 
barriers that prevent that from happening now?
    Mr. Luckie. I think there is a lot of focus on the 
managerial positions and having someone at the top that will 
filter down and make a workplace more diverse. I think it is 
more important on the employee level to have multiple people in 
the room who can say, hey, are we testing on this particular 
audience; have we thought about this particular impact on this 
community?
    As I said in my opening statement, making sure that those 
voices are being heard, that there is an equal opportunity for 
people to share those concepts, and it is important for tech 
companies to do an audit of these individual teams and 
understand where are the gaps in diversity, not just in the 
company overall, but on the individual teams that are all 
impacting the company's overall goals.
    Ms. Castor. Thank you very much.
    I have a few other questions. I had a group of neighbors 
from Florida come and visit me who happened to be blind, and 
they had a number of suggestions. My time is running out. So, I 
am going to submit those to you for the record and ask you to 
please send in your specific answer to those.
    Thank you.
    And I yield back.
    Ms. Schakowsky. Thank you.
    And now, 5 minutes to Mr. Guthrie.
    Mr. Guthrie. Thank you, Madam Chair. I appreciate it very 
much. Thanks for this hearing. This is a very important 
hearing.
    A couple of things. One, and this is for Dr. Ferrini-Mundy, 
or anybody that would like to answer the questions, but I will 
focus on you. I understand that Facebook, Google, and all the 
tech companies have people in marketing in all different 
degrees, but I am going to focus on the STEM side of their 
businesses.
    I think the Chair just said in her questions that, as we 
need more computer science people, as that seems to be the 
initial higher, where big money is, people in tech fields, if I 
heard you correctly--I know you said it correctly--but if I 
heard you correctly, 28 percent of the computer science used to 
be women and now it is down to 18 percent. So, I guess my 
question is, does the tech workforce in Silicon Valley or in 
tech, the tech people, does it reflect the people in the tech 
programs, the demographics? So, is it kind of they are hiring 
who we are training or educating as a nation? And if so, how do 
we get more people into it? How do we get a more diverse STEM 
populace, so that there will be a more diverse technical? 
Because the other side is, if it doesn't reflect that, that 
means they are just really being biased in who they hire. Of 
course, I am talking on the STEM side of their business, their 
employees.
    Dr. Ferrini-Mundy. Right.
    Mr. Guthrie. OK.
    Dr. Ferrini-Mundy. Thanks. And so, there are several 
questions in there. I think in terms of the tech workforce, 
others in this panel are more expert in the dispersed expertise 
across that tech force, because I suspect it comes from a 
variety of areas. That all said, we must do better in higher 
education to attract people to these STEM fields, to computer 
science, and to make their time in higher education much more 
inclusive, so that they are a part of the groups that are, 
then, going to be taking on these product questions when they 
get into the tech workforce.
    Mr. Guthrie. How do we get more people, a diverse group, 
into the----
    Dr. Ferrini-Mundy. Right.
    Mr. Guthrie [continuing]. Because what happens in tech 
school, not just computer, if you are talking about a 
manufacturing company in Kentucky needs a computer science, I 
mean a numerical control person, whether it is male, female, or 
whatever, they can't find them, and we have all these people 
not going to secondary schools. So, there seems to be a 
breakdown in the market----
    Dr. Ferrini-Mundy. Right.
    Mr. Guthrie [continuing]. For getting people into the 
right--no matter who they are.
    Dr. Ferrini-Mundy. At U Maine, I just learned that about 47 
percent of our students are in STEM fields, which is high. What 
that means is that we are creating pathways from our secondary 
schools that are welcoming. We do an early college program that 
gives students the opportunity to study with our faculty before 
they get out of high school.
    I think a lot of it is about pathways and helping students 
be able to see themselves in these careers, see them as 
meaningful career options. And a lot of that has to do, then, 
with real-world kinds of problem-solving as undergraduates, so 
that it is real-world learning outside the classroom in 
internships, in clinical experiences, that put them together 
with people in these fields. A lot of collaboration with K-12 
is crucial for this, too. It begins very early. So, all of the 
work in coding, for example, that we heard about is one piece 
of, I think, an important systemic effort to get people 
interested, to get diverse people interested in STEM.
    Mr. Guthrie. I have got a few seconds. I want to ask 
another question. Anybody want to comment on how we get more 
people into, a more diverse, educated group to come out, so a 
pool?
    Dr. Turner Lee. Yes. No, Congressman, I think it is a great 
question. I mean, overall, we have a national shortage of tech 
workers. So, let's just start there. I mean, in programming, we 
have seen that in government where years ago there were 10 to 
15 thousand people we couldn't employ in cybersecurity tech 
jobs. So, if we look at the national shortage of where we are 
as a country, and then, you trickle that down to diversity, it 
becomes even more problematic, right?
    But I think what we are seeing is this movement in colleges 
and universities to sort of focus on computer science, which I 
think may become a better shift. I mean, I have seen Members of 
Congress, your colleagues, sort of introduce computer science 
as a national initiative. It has not been a national priority.
    People, you know, they change where they are in terms of 
their leaning towards STEM. There are studies that say, with 
African-American children, if a young African-American boy is 
not actually focused on math by sixth grade, it is less likely 
that he will pursue a STEM career when he goes to college.
    That is why I say I think it is important for us to look at 
the sources of where we are recruiting students and build up 
where there is a possibility of more appropriations in these 
programs, opportunities. It is also important----
    Mr. Guthrie. I do have one more quick question I want to 
get to.
    Dr. Ferrini-Mundy. OK.
    Mr. Guthrie. I apologize for that.
    Ms. Oliverio, I wanted to ask you a question about 
veterans. I served in the military myself. But I think you said 
to maybe Congresswoman McMorris Rodgers, you said, ``Tech will 
meet veterans where they are and they will diversify 
themselves.'' I mean, what does that mean, tech needs to meet 
veterans where they are?
    Ms. Oliverio. By more fellowships, apprenticeships, and 
opportunities for veterans to bridge their skills gap in a 
field such as coding. Coding is wildly popular, and there is a 
lot of professional opportunity across corporate America to get 
a job in coding. But that is one major skill that is not 
utilized in any branch of service.
    Mr. Guthrie. And 5 minutes does pass too fast.
    [Laughter.]
    So, thank you, Madam Chair.
    Thank you for your answers.
    Ms. Schakowsky. Now I recognize Congresswoman Kelly for 5 
minutes.
    Ms. Kelly. Thank you, Madam Chair.
    Algorithms are the undercurrent of the internet. So much of 
what we do online is run by automated machine-learning 
algorithms. But it has become clear, as we have talked about, 
that bias of all kinds permeates many of these algorithms.
    In his written testimony, Mr. Luckie pointed to several 
examples of bias output of algorithms. What makes this even 
more concerning is that, apparently, no one, often not even in 
the engineers and computer scientists creating the algorithms, 
really know how these machine-learning algorithms work. All 
they really know is what datasets are used to train the 
algorithms and what results come out of the other end. As we 
often hear, garbage in, garbage out.
    Ms. Kim, can you expand on how the decisions made by 
algorithms can hurt vulnerable communities?
    Ms. Kim. Thank you, Congresswoman.
    Ms. Kelly. You're welcome.
    Ms. Kim. In terms of, again, the specifics of the technical 
aspects of why things happen, it is upon industry to let us 
know, have more transparency, and work and engage with us in 
terms of civil rights organizations and communities of color to 
let us know why these things are happening.
    But, in terms of the examples that have happened, we have 
seen, for instance, in Oakland, California, the police 
department using predictive software to send police to 
neighbors that are more often than not communities of color, 
regardless of the actual crime rate of those neighborhoods. You 
see examples again and again like this. And it is upon us, it 
is our job as civil society organizations to raise these issues 
to tech companies, but the tech companies must engage, and many 
have. And we appreciate companies that have engaged in civil 
rights audits and other opportunities to raise these concerns, 
and often to raise concerns before they become actual problems. 
And so, we look forward to additional engagement.
    Ms. Kelly. So you feel the companies need to be more 
proactive?
    Ms. Kim. Absolutely.
    Ms. Kelly. Mr. Luckie, you said that some of the more major 
incidents that you listed can result in bad publicity, which 
can alienate customers, leading to profit loss. Is it fair to 
say that there are biased outcomes that have not been 
identified?
    Mr. Luckie. Absolutely. One of the things about working at 
Facebook, in particular, is that you don't see the fires that 
the company has put out before it gets to the public. And there 
are whole teams that are just working on getting those out of 
the public eye.
    What I will say is that companies like Facebook think about 
the best possible uses of their platform and not the worst. 
That is where you see issues like Russia and hackings and 
privacy, and then, they become issues that they have to fix 
later down the road.
    Ms. Kelly. So, are you saying that companies, again, need 
to be more proactive and not just reactive--
    Mr. Luckie. Absolutely. Absolutely.
    Ms. Kelly [continuing]. When something happens or when the 
press is looking?
    Mr. Luckie. And having more people in the room from 
different backgrounds will aid in that.
    Ms. Kelly. OK. Targeted online advertising has become so 
sophisticated that advertisers can skirt Federal law by using 
interests as a proxy for disability, race, or other protected 
traits. Mr. Luckie, what do platforms need to do to address 
these loopholes and fight less blatant forms of discrimination?
    Mr. Luckie. It is really about the education and making 
sure that that is being disseminated from the top. Too often 
what is happening is this is happening on a ground level, where 
employees are fighting the good fight and educating up, rather 
than that happening top-down. And so, it has to be a priority 
for leadership and them to be vocal and, also, to hold people 
accountable in order to make sure that these things aren't 
happening.
    Ms. Kelly. Dr. Turner Lee, do you have anything more to 
add?
    Dr. Turner Lee. Yes, I would add, the interesting area that 
we are in, Congresswoman, right now is the fact that we do not 
have demographic data collected about us by technology 
companies. And so, what you are suggesting is that use proxies, 
your zip code, maybe your profile picture, things that actually 
are subjective measures to sort of come at your identity. 
Because a lot of what we see in algorithms are inferential 
circumstances, right, it is inferring from my purchasing 
behavior where I visit, who I speak to and connect to, the type 
of person that I am; therefore, determine the type of product 
that I might be interested in. Thus, leading to targeted 
advertising.
    I think there is an opportunity here for Congress as well 
as the tech sector to think about ways to look at how to 
correct bias. Are there secondary datasets that they can use to 
sort of ensure, as Mr. Luckie has said, that this algorithm is 
not going to generate an unintended consequence? Are there 
cases where they want demographic data and want permission from 
consumers to collect that, to ensure that the algorithm will 
not be biased? I think as we go forward those conversations 
will need to be had.
    I think it is also important for customers and consumers to 
have a feedback loop.
    Ms. Kelly. Let me just get my last question in----
    Dr. Turner Lee. Yes.
    Ms. Kelly [continuing]. Which you can answer and anybody 
else. What is the role of the Federal Government? Do Federal 
laws and guidelines need to be updated to reflect changes in 
advertising technologies? So, I just wanted to quickly get 
that.
    Dr. Turner Lee. Yes, and I will be quick. I have said it, 
and I will keep saying it. I think we need to revisit those 
nondiscrimination laws and, where they are applicable, apply 
them to digital space, and maybe not do it in a way that is 
punitive, but just extend those protections to consumers.
    Everything that you have heard around algorithm bias is 
mitigated through existing guardrails, but I also think that it 
is important that we have self-regulatory measures where the 
tech sector sits down with civil society, it has been 
mentioned, to think through these cases. There are going to be 
use cases where data will be weaponized against communities of 
color, against women, against people with disabilities, and we 
need to find ways to stop that.
    Ms. Kelly. Thank you.
    Ms. Schakowsky. Now I recognize Congressman Gianforte for 5 
minutes.
    Mr. Gianforte. Thank you, Madam Chair.
    And thank you for the panel today, for your testimony. This 
is a very important topic.
    In our technology business, we found that internship 
programs and coding classes were effective ways to train and 
recruit good hires. And I would love to hear from Dr. Ferrini-
Mundy. With that in mind, can you please discuss some of the 
steps your university is taking to engage with the local 
business community to match up the educational pursuits with 
the needs in the marketplace?
    Dr. Ferrini-Mundy. Thank you for the question.
    We, of course, are situated in Maine, in a rural State like 
yours. So, we are very, very eager to be certain that we are 
serving the economic development of the State of Maine with 
very well-prepared students who will engage that business and 
industry. And there are a few key fields where this is 
especially opportune for us in Maine, in the forest resources 
industry and agriculture fields, in the marine science areas, 
for a few. Those fields are all becoming increasingly 
technological. So, they are not high-tech in the sense that we 
are discussing here exactly, but they really do depend upon 
people who will bring the kind of knowledge that we are 
discussing.
    So, we are very eager. We have a number of important 
internship opportunities. We have an incubator that allows 
students to work together with companies that are looking to 
expand and new companies coming into the State. We try to make 
those real-world problems that these companies are facing a 
part of the education of our students.
    Mr. Gianforte. OK. Thank you.
    We have been talking a lot today about the shortage of 
workforce. One of the things we have experimented with--not 
experiment, we have done it in Montana--was we, particularly in 
the computer science curriculum, we have introduced a bachelor 
of arts in computer science versus a bachelor of science----
    Dr. Ferrini-Mundy. Right.
    Mr. Gianforte [continuing]. To attract more people.
    Mr. Guthrie was asking about how do we broaden the net to 
attract more people into these STEM programs at a college 
level. Could you just talk to that a little bit, about other 
things we might try?
    Dr. Ferrini-Mundy. Sure. And I should say that, prior to 
coming to the University of Maine, I worked at the National 
Science Foundation for a number of years, and was a part of a 
variety of conversations there. In part, the NSF has identified 
something called The Future of Work at the Human-Technology 
Frontier, as one of its initiatives that is described on their 
website. And that is a program that is calling for research 
that will help us to better understand these technological 
changes that our society is addressing and how we can really 
better understand what it takes to prepare people to work in 
these spaces.
    So, within computer science, for example, there is a 
national conversation about what you described, creating the BA 
in computer science, but also the notion of computer science 
plus some other field as a kind of major. So, computer science 
plus biomedical engineering, computer science plus sociology. 
The idea that we want to advertise to students, the computer 
sciences is meant to help us solve a very wide range of 
problems, not only problems that are specifically in some 
vision of technology that may be an old-fashioned one.
    Just one quick last point that I wanted to make relative to 
the discussion of the algorithms and the algorithmic bias. I do 
think that a piece of addressing this should be sitting within 
universities as well, so that researchers are working within 
machine learning, within AI, to understand and help to shape 
these algorithms in ways that are consistent with the kind of 
diversity we are talking about.
    Mr. Gianforte. Well, I certainly agree with you. It is a 
truism that computers are here to stay, and I can't imagine any 
degree that wouldn't benefit----
    Dr. Ferrini-Mundy. Right.
    Mr. Gianforte [continuing]. Without some minor in computer 
science----
    Dr. Ferrini-Mundy. Right.
    Mr. Gianforte [continuing]. Making a better candidate for 
any job in the marketplace.
    Dr. Ferrini-Mundy. Absolutely.
    Mr. Gianforte. Yes. Ms. Oliverio, I understand your 
organization works with veterans. We have the second-highest 
per capita number of veterans of any State in the country in 
Montana. Some people might have a difficult time understanding 
how a ranch hand or a combat veteran might end up in the tech 
industry, but I believe the key to a good employee is always 
work ethic and selflessness. I am interested in having you just 
summarize for me briefly the work that you do to help veterans 
make that transition into the tech industry.
    Ms. Oliverio. For us at Military Talent Partners, we 
believe that everything begins with mentorship, understanding 
the goals and the purpose and helping veterans and spouses 
really find their ``why'' and understand what they want to 
accomplish in their career. It may have absolutely nothing to 
do with their job in their service, but by aligning their goals 
and their purpose, they become empowered to find a meaningful 
career that is meant for them.
    Mr. Gianforte. OK. Great.
    And just, Ms. Houghton, if I could, I understand some 
companies exclude people with disabilities. One of the reasons 
they give is the cost. Can you just comment briefly on how can 
companies accommodate costs associated with hiring people with 
disabilities and what impact that really has?
    Ms. Houghton. So, I think that that is a myth, and that 
what we have found and what we have shown with the Accenture 
data is that it is quite the contrary. For companies that are 
committed to disability inclusion, they actually four times 
greater total shareholder returns.
    Mr. Gianforte. Thank you for your enthusiasm.
    With that, I yield back.
    Ms. Schakowsky. Mr. O'Halleran, I recognize you for 5 
minutes.
    Mr. O'Halleran. Thank you, Madam Chair.
    And, Panel, I have really appreciated this discussion 
today.
    Mr. Luckie had identified within his written testimony at 
least that there were 22 percent of rural residents that did 
not have the high-speed broadband ability to be able to even 
get prepared for the industry. Whether it is gender bias or 
racial bias or disability bias or geographic bias, and it 
really bothers a lot of us on all those fronts, along with our 
veterans, the bottom line is that it is still human input into 
this process and somewhere along the line these organizations 
need to identify that peer review, and input from the community 
is critically important to be able to get some fairness into 
the process. I would rather see that done through the companies 
themselves, and I think that that is the direction we need to 
go.
    I am going to kind of go to the geographical issue right 
now. Dr. Ferrini-Mundy, you have mentioned a ton of programs at 
the university, but it gets down to how do we get students from 
those geographic areas. My district in Arizona has 12 Native 
American tribes that make up 24 percent of the district's 
population. Twenty-some percent of the district population is 
Hispanic. A tremendous amount of poverty. Arizona is a big 
State. Sixty percent of the land mass of that State is in my 
district.
    And so, the problem becomes that, when it gets down to just 
the sheer technology needs, and now that we are going from 
where we are at now to 5G, I think personally that that is 
going to put rural America and those areas back further, even 
though they will get better than what they have, they will lose 
ground from where people are going to be in urban areas. What 
is your experience in getting students from those areas, first, 
into the university, keeping them in the university, and 
getting them into these programs? Also, we have, obviously, 
many of those families that the first time they hit the 
university is the first person from that family ever to get 
there.
    Dr. Ferrini-Mundy. Right, right. So, I can speak to that in 
a couple of ways. In the University of Maine, we are actually a 
part of a university system with several regional campuses 
across the State, many of them located in extremely rural 
areas. In fact, one of them, the University of Maine at 
Machias, is a regional campus of the University of Maine. And 
so, we are very dependent upon making certain that those 
campuses, and particularly Machias, are responding to the 
challenges and issues of that particular geography. It is a 
coastal area. It is a very economically disadvantaged area. So, 
we are seeing that campus really thrive as a center for the 
community, as a way to address issues that are of interest 
there, to try to build a workforce that can thrive in such 
areas as healthcare and community services. So, some of this is 
about customizing what the institutions offer to the regions 
that are there.
    The broadband issue is a serious challenge in Maine. And 
so, we face that in a variety of ways, working together with 
the State, with the legislature, to see what kind of progress 
we can make on that front. Because online opportunities will 
continue to abound, and we want to be certain that those are 
accessible to all students.
    Mr. O'Halleran. How much of a disadvantage is this to those 
residents and their children from those areas versus urban 
areas?
    Dr. Ferrini-Mundy. It certainly is a major challenge. That 
is why at this point we want to be certain that our regional 
campuses are providing very good opportunities and services, 
ranging from programs for first-generation college-going 
students to other kinds of support. But it is a serious problem 
for us in our State.
    Mr. O'Halleran. And just a comment towards the end here on 
our veterans. First of all, it is Women's Month and we need to 
make sure that--we can't just take 50-some percent of our 
population and not them have an active high-level role in our 
society and leaders of our society. But our veterans, again, 
when you take a look at the training that our service personnel 
go through, that is a key indicator of leadership in the 
future, the ability. All they need is that little bit extra to 
be able to adapt. It is not changing; it is adapting to a new 
role. We all go through that in life, and we just need to make 
sure our veterans have that opportunity.
    So, thank you for what you are doing.
    I yield.
    Ms. Schakowsky. Mr. Carter, you are recognized for 5 
minutes.
    Mr. Carter. Thank you, Madam Chairman.
    And thank all of you for being here. We appreciate this. 
This is certainly a very important subject.
    I want to start with you, Ms. Ferrini-Mundy. Is that right?
    Dr. Ferrini-Mundy. Yes.
    Mr. Carter. I'm sorry. Thank you.
    Obviously, you have got an extensive background in 
developing policies that would help young people enter into the 
job market and into new opportunities, particularly as it 
relates to STEM and particularly as it relates to getting a 
number of minorities involved, a number of those who don't have 
the opportunities perhaps that some others do.
    Would you agree that there is a major problem in the number 
of minority communities that have access to these STEM fields 
and tech-related jobs?
    Dr. Ferrini-Mundy. Certainly if we look at the numbers of 
minorities well represented in the STEM fields, there is a 
problem.
    Mr. Carter. Right.
    Dr. Ferrini-Mundy. I mean, those numbers should be tracking 
at least with representation across the society.
    Mr. Carter. So, let's talk about that for just a second. 
When you say ``STEM,'' I think we all think of just STEM and 
more engineering.
    Dr. Ferrini-Mundy. Right.
    Mr. Carter. But there is more to it than that.
    Dr. Ferrini-Mundy. Certainly, certainly.
    Mr. Carter. In the State of Georgia, we have been very 
successful in building up our film industry through tax credits 
and different incentives, and through the work of the Georgia 
State legislature, and particularly the economic development 
committee in the House and our chairman. Chairman Ron Stephens 
has done an outstanding job. It has resulted in a lot of 
opportunities for these type of jobs. It has created a number 
of jobs.
    One of the things that we are very proud of is the Georgia 
Film Academy. That was established through the State, and it 
runs through 12 different institutions, through the university 
system and the technical college system. They offer degrees and 
certificates, and that is the type of thing.
    Can you think of any other examples like this where it 
necessarily might not be engineering jobs per se, which is I 
think what we think of when talk about STEM? But it is 
opportunities, nonetheless, and good opportunities and good-
paying jobs.
    Dr. Ferrini-Mundy. I would mention a few areas at least 
that are relevant for us along these lines in Maine and that do 
require some combination of background in science, technology, 
engineering, and mathematics. I will keep putting in plugs for 
mathematics and statistics as central features for these areas.
    But industries such as the forestry industry in the State 
of Maine or aquaculture, a growing industry in our State, these 
are industries that do depend on technological solutions to 
some of the challenges that they face. Agriculture, more 
generally, is, of course, also facing opportunities with new 
technologies. So, people with a range of backgrounds really can 
come together to solve the sorts of problems that these 
industries face in States that are particularly suited to 
particular industries.
    Mr. Carter. Great. And thank you for mentioning timber 
because Georgia is the No. 1 forestry State in the Nation. That 
is something that is very important to us as well.
    Real quickly, I am going to switch over to you, Ms. 
Oliverio. I'm sorry. I hope that is OK. But I am very blessed; 
in the First Congressional District of Georgia we have four 
military installations. We have a number of veterans. We are 
home to over 75,000 veterans. Our quality of life and all the 
things that we enjoy, our environment, lead to a lot of people 
retiring in our area, particularly after we have four military 
installations, a lot of them just stay there and retire.
    The hiring of veterans, this is something that is very 
important. A lot of companies in the First District have really 
capitalized on this and found the veterans to be excellent 
employees. What are some of the challenges that we face, that 
veterans have faced, to being hired?
    Ms. Oliverio. Specifically, to the major Atlanta area, 
there are a number, a massive number of veterans that want to 
relocate to that area and to work, and have struggled to find 
meaningful job opportunities to get in front of the interviews. 
So, while there is a huge footprint for veterans in that area 
in the beautiful State of Georgia, we can do better on the 
messaging on what is available for veterans and how we can 
better acclimate them into the businesses in that State, and 
then, therefore, retain them and mitigate turnover issues 
across the landscape of the corporate build in Georgia, and in 
specifically Atlanta. But if we can make it more well known as 
to what is available and welcome them in, we would have a much 
higher success rate.
    Mr. Carter. Is there anything we can do from a State 
perspective or from a government perspective as far as 
certificates, as far as our technical schools are concerned?
    Ms. Oliverio. Absolutely. I think encouraging mentorships 
or fellowships or apprenticeships of technical schools is an 
excellent idea. It is making it known. We create a lot of great 
programs and ideas, but the word doesn't get out, and it 
becomes too difficult for people to understand how they can 
apply to it or how they qualify or how their business will fit 
into that model. So, by making it more accessible, they can 
take more advantage.
    Mr. Carter. Great. Well, thank you all very much. This is 
extremely important.
    And thank you, Madam Chair, and I yield back.
    Ms. Schakowsky. Thank you.
    And now, I am calling on Congresswoman Blunt Rochester for 
5 minutes.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman, and thank 
you for having this very important panel.
    Diversifying and including folks in the tech industry is 
one that I think all of us on the committee can agree with. I 
really wanted to use this time to talk about the fact that, 
whether it is diversifying the workforce or whether it is the 
products that are being created, if you don't have 
representation, we don't get a good product. We have already 
heard the stories of facial recognition that might not 
recognize darker-skinned people or voice-enabled devices that 
have a hard time with accents. And at its worst, we have seen 
algorithmic bias result in criminal risk assessment software 
predicting that black offenders were almost twice as likely to 
reoffend than white offenders, even though their history showed 
otherwise.
    So, it is really vitally important to have this panel. I am 
grateful to the diversity even of the panel that is represented 
here and for the work that you do.
    My first question is for Dr. Turner Lee. In your written 
testimony, you mention COMPAS, the AI software used across the 
country by judges to determine how likely a convicted criminal 
is to commit more crimes. Can you speak more about the real-
world consequences of the bias found in the program?
    Dr. Turner Lee. Thank you, Congresswoman.
    Yes. I think as a researcher--and I have a degree in 
sociology--I think that is a really important use case that 
deserves some more discussion. What we are talking about in the 
COMPAS algorithm is the ability of judges to rely upon 
automated decisionmaking to assess whether or not people should 
have longer sentences, be released on bail, et cetera. But the 
challenge with that comes--and I think we have heard it a few 
times--in the training data. We all know in the criminal 
justice system that African Americans are more likely to be 
arrested. They, therefore, are more likely to be populated 
within this training set. As a result of that, when it comes to 
sentencing, they are more likely to be penalized or assessed 
larger penalties because of their overrepresentation there.
    That is problematic because what that is suggesting is that 
we are not taking technology and assessing against settled 
research, settled stereotypes, or information that we know are 
assumptions about stereotypes, which brings in, I think, what 
was discussed around implicit and conscious bias, and it also 
brings in structural race and the discrimination. Unless we fix 
those, we, then, develop products that will continue to pick up 
on those errors.
    Ms. Blunt Rochester. Right.
    Dr. Turner Lee. And so, again, Congressman, you picked up 
on something that is quite problematic because there are 
irreparable consequences to being incarcerated longer that we 
cannot solve.
    Ms. Blunt Rochester. Thank you.
    And it leads me to Mr. Lopez. I know you were the longest-
serving general counsel at the U.S. EEOC. What role should the 
EEOC play in all of this? And do you have the tools?
    Mr. Lopez. Yes. No, I think the EEOC has been very active 
in terms of collecting the data on the absence of diversity in 
the high-tech field. It has also held, I believe, three 
commission meetings which focused on developing information on 
the use of big datasets as employment screens, which is, I 
think, one of the more controversial and one of the most 
important areas in terms of how predictive analytics are now 
being used as a way to recruit and to select applicants.
    And I think what happens is that many of the companies 
involved in these efforts market them as a way to actually 
eliminate bias, and that is a possibility. I mean, really big 
data, data analytics, if used correctly, is not necessarily a 
bad thing. I don't think any of us are coming here as Neo-
Luddites against the technology. But I think the EEOC has been 
very active in terms of talking about the problem of bad data 
in, bad data out, some of the inherent biases in these tools in 
terms of addressing discrimination.
    Ms. Blunt Rochester. Thank you.
    And, Ms. Houghton, I want to briefly say that I was pleased 
to see the work that you are doing, and I also wanted to 
reinforce what you said about the statistics for people with 
disabilities. When you intersect that with being a woman or 
being a person of color, it is even double. In the last 20 
seconds, could you talk about some of the myths that people, 
particularly employers, have for hiring individuals with 
disabilities?
    Ms. Houghton. I think that that is a great question, 
Congresswoman. And there are a lot of myths. There are myths 
that the talent doesn't exist. There are myths that, if I hire 
these people, that they are going to cost me money, that they 
are going to sue me, and on and on and on.
    Ms. Blunt Rochester. Great. And I yield the balance of my 
time.
    Ms. Schakowsky. Mr. Bucshon, you are recognized for 5 
minutes.
    Mr. Bucshon. Thank you very much.
    My daughter is currently majoring in computer science at 
Cornell University. She is a junior, and she is primarily in 
STEM because, when I first came to Congress, I heard all these 
stories about how we needed more diversity in STEM, which is 
very true, and we all agree on that, I think. I told her, look, 
if you want a job, you should probably look at computer 
science, and she did. So, it is the only kid that has listened 
to me so far. The rest of them, you know, they won't listen.
    [Laughter.]
    And she will be interning in a large bank in New York City 
this summer.
    And so, in this discussion I think--and I apologize, I had 
another hearing--but we a lot of times focus on edge providers 
like Facebook, Google, Twitter, and other tech companies like 
that. But, really, these opportunities are growing across all 
sectors of our economy.
    And so, Dr. Ferrini-Mundy, can you explain how universities 
are working to promote these types of tech opportunities to 
their students, including, for example, the big banks which are 
hiring more tech people than they are bankers?
    Dr. Ferrini-Mundy. So, again, I think there are many things 
universities are doing and can do. One is to make sure that the 
education that we provide our students both deep and broad 
enough to enable them to seek those kinds of opportunities.
    The second is to continue to work to have internships, 
apprenticeships, opportunities for students along the way as 
undergraduates to get access to chances to work in some of 
these different sectors, and to both show what they bring 
because of their diversity and their knowledge, and also get a 
chance to imagine whether they could work there. Those 
frequently turn into offers at those kinds of companies.
    Mr. Bucshon. Based on American Community Survey-PUMS data, 
1.1 percent of people from Indiana have a degree in computer 
science. Again to you, diversity is important in all 
industries, including diversity of ideas and background. Can 
you provide examples of what efforts universities might be 
taking to promote STEM degrees like computer science in rural 
communities? And honestly, I think this may be as applicable to 
urban settings also, but particularly rural communities that 
may not have the knowledge of these job opportunities offered 
in the tech sphere.
    Dr. Ferrini-Mundy. A lot of the examples that I am aware of 
have to do with working at the K-12 level, to actually go into 
schools, to create after-school learning opportunities, coding 
kinds of programs. So that students can get a picture of what 
it might be like, rural students particularly who may not have 
a good opportunity to see these options, and then, imagine what 
they could be in those careers. So that they can follow a 
pathway that will take them toward an undergraduate major.
    Mr. Bucshon. Dr. Turner Lee, why do you think we are having 
a discussion about the lack of diversity in tech? I mean, what 
is your fundamental view about--I mean, why? I think we have 
answered some of that today and we have given some opinions 
today. But that is fundamentally why we are here, right? We all 
believe that diversity is very important, diversity based on 
like my daughter; she is a woman. And then, what is your view? 
I mean, fundamentally, when you get really cut to the chase? 
And what can we do about it?
    Dr. Turner Lee. Yes, I think, fundamentally, we are having 
this conversation because we are in this fourth Industrial 
Revolution, right? And this Industrial Revolution has people 
tethered to technology, and we are seeing the consumption 
trends sort of amplify itself to the extent to which people who 
are now consuming these products are not part of the 
decisionmaking of these products.
    And just like we saw in other industries, let's just go 
back, we saw in the '60s and '70s the same type of diversity 
programs initiated to bring in more representation, and they 
made companies better. And so, I think, going forward, we are--
--
    Mr. Bucshon. Yes, for medicine, for example.
    Dr. Turner Lee. Yes, medicine.
    Mr. Bucshon. I am a doctor. My wife is a doctor.
    Dr. Turner Lee. That is right. Automobiles----
    Mr. Bucshon. Right. If you look back at the '60s, the 
makeup of people who are physicians was not very diverse, 
right?
    Dr. Turner Lee. Yes. I just think we are at a turning 
point, Congressman. I think it is one of those conversations 
that for years people have been discussing, but, as technology 
becomes more entrenched and the boundaries between the physical 
space and the digital space become much more connected, that we 
are just trying to figure out as a country, for us to be 
internationally competitive, how do we bring in more diverse 
perspectives and minds. That is why the diversity of this panel 
reflects this conversation.
    By the same token, we don't want these products that people 
are depending upon--we are no longer an in-line economy; we are 
in an online economy--to hurt them or harm them. And that is 
why we are having a discussion around consumer protection. So, 
I think that is at the crux of why we are here today.
    Mr. Bucshon. OK. Thank you. I yield back.
    Ms. Schakowsky. Beautiful.
    I am calling on Mr. McNerney right now for 5 minutes.
    And I just want to say, you are seeing that people are 
coming back. They really feel that this panel and this 
discussion is very important.
    Mr. McNerney?
    Mr. McNerney. Well, thank you. I thank the Chair.
    And I thank the witnesses. I apologize for missing most of 
your testimony.
    But, first of all, I want to say I am a mathematician by 
education. I cochair the Congressional AI Caucus. And I 
represent a district that is very, very diverse. So, while I am 
excited about many of the technology innovations that we are 
witnessing today, I am also concerned that many people will be 
left behind, and what that means for my district and my 
constituents.
    Specifically, I am worried about how automated 
decisionmaking can impact my constituents' ability to obtain a 
loan, to receive social services, to see housing ads, to be 
promoted in jobs, or even to get consideration for a job in the 
first place. So, it is clearly critical that the teams 
designing these products are representative of who the products 
are going to serve.
    Now there is a real need for greater transparency in how 
these algorithms are produced and the decisionmaking is made. 
Mr. Lopez, in your written testimony you noted that algorithms 
are often predicated on data that amplifies, rather than 
reduces, the already present biases in society, racial, ethnic, 
and socioeconomic. Can you elaborate on that a little bit, 
please, and maybe provide an example?
    Mr. Lopez. I mean, I think a good example would be using 
social media to advertise for housing opportunities and to 
limit the advertisement to certain zip codes. Zip codes have 
traditionally, due to the history of housing segregation in 
this country, have often been used as a proxy for minority----
    Mr. McNerney. So, is that being done by algorithms or by 
human beings, those decisions, or both?
    Mr. Lopez. Everything that we are talking about is being 
done by human beings at the end of the day. I think what 
happens is that the algorithms--and let me use a different 
example from the employment context. Let's say there is a 
correlation between having an interest in manga comic books and 
being somebody who might be a good computer engineer. This is a 
real example. But, again, the individuals--it is correlation, 
not causation--and the individuals that tend to have an 
interest in manga comic books tend to be men, right? And so, if 
you start to use that algorithm to select computer engineers, 
what you do is you sort of reinforce and you replicate, I 
think, the general systemic exclusion of women.
    Mr. McNerney. So, that is an example of why machine 
learning makes bias more difficult, right?
    Mr. Lopez. Yes, yes.
    Mr. McNerney. Thank you.
    Ms. Turner Lee, in your testimony you mentioned that you 
will be issuing a paper next month addressing a course of 
developing quality instruments and questions to measure 
algorithmic bias. Do some of these instruments already exist?
    Dr. Turner Lee. There are some instruments, and I think it 
has been mentioned that we have seen companies more on the tail 
end that do audits. The paper that we will be releasing at 
Brookings is more of a forward-thinking paper, to your point, 
and it is coming up with questions. Do we need an algorithm for 
this actual use case? If we do, is there diversity in design? A 
lot of the questions that you are asking. Are the right people 
at the table? Is civil society part of the conversation and 
debate? Is there a feedback loop? I think that is part of the 
pathway toward more responsible governance over the way that we 
are constructing algorithms, evaluating, et cetera.
    But I do want to suggest to you, Congressman, something in 
your previous question. I don't want us to put in a bucket that 
all technologies are acting discriminatory or racist.
    Mr. McNerney. Right.
    Dr. Turner Lee. I think the way the technology has been 
structured and how opaque the internet has become, these 
algorithms are adapting to our human behavior. So, there are 
cases where a developer, a technologist, may not say, ``I want 
to flag women for this particular job.'' But how the internet 
has actually become layered, it will see the name Mary and 
assume that Mary is a woman, and populate itself and operate 
and function pretty much adapting to the historical biases that 
we have as a society.
    Mr. McNerney. Again, that is machine learning, a machine-
learning tool.
    Dr. Turner Lee. That is machine learning, yes. And I think 
the paper that we are going to be putting out is really trying 
to help companies have a more proactive stance to actually how 
you look at these conditions and how you look at these teams, 
and how you look at these outputs, and come up with solutions 
to do something about it.
    Mr. McNerney. Well, you also mention that businesses have 
taken action to correct bias, such as Facebook and Google, but 
that was only after a lot of public pressure. Are there 
examples of companies that have proactively acted or do you 
think that is a trend that we could expect to see without 
significant motivation from Congress?
    Dr. Turner Lee. I actually want to say that there are 
companies that are taking advantage of this. Microsoft is 
another case where they are actually very proactive in how they 
design algorithms. They had a case where they put out a voice-
activated computation or application that was picking up--it 
was taking in people's voices and, basically, putting out very 
antisemitic and racist stuff. They took it off market, right, 
because the developer did not anticipate those consequences.
    So, I think we are seeing a blend, which is why I said 
previously and put it in my testimony, self-regulation is not a 
bad idea. It is just a combination of how do we combine that 
framework with what we already have existing in our resource 
kit.
    Mr. McNerney. Thank you. I yield back.
    Ms. Schakowsky. Mr. Soto, for 5 minutes. Welcome back.
    Mr. Soto. Thank you, Madam Chair.
    It was briefly mentioned before, a report came out from the 
ACLU about new facial recognition technology where they 
downloaded 25,000 arrest records, used them against pictures of 
every current Member of Congress in the last term. There are 28 
false matches. People of color made up 20 percent of Congress 
at that time, more now, by the way. And 40 percent of the false 
matches were people of color, including legendary civil rights 
hero John Lewis. Obviously, the software as it stood there 
would disproportionately target minorities. This is a 
technology that is being used in my hometown of Orlando, only 
voluntarily, to track officers to test the technology, but 
certainly it is something that is concerning for us.
    Recently, I got to join Representatives Brenda Lawrence, Ro 
Khanna, and others, on ethical guidelines for AI development, 
including transparency and process, empowering women and 
underrepresented populations, and accountability. So, it really 
brings up sort of a broader topic of what Congress' role is in 
being able to address these things.
    I will start with Dr. Turner. Some of the algorithmic bias 
mentioned today is the result of bias datasets, are there 
practices and procedures that can be implemented to reduce the 
bias in training data that could be helpful?
    Dr. Turner Lee. Yes, I would say start with 
overrepresentation, right, of what those faces look like. So, 
an MIT researcher--and I don't want to butcher her last name, 
maybe Mr. Luckie can help me--Joy Buolamwini has actually done 
a lot of studies where she has actually said a lot of facial 
recognition technologies do not work because they are 
underrepresented in terms of African Americans or darker skin 
hues. So, we have to actually populate the training data where 
it reflects the entire population.
    I think part of the problem we have, Congressman, why 
people don't do that, as a researcher, I am subjected to 
guidelines when it comes to IRB requirements and human 
conditions. We are rushed to market when we come to proprietary 
algorithms, right? It is who gets there first.
    And so, I think having some attention to overrepresentation 
is really important. Also, feedback loops also help with the 
training data. The paper that we will be releasing will talk a 
little bit about the technical side. Again, I'm not a computer 
scientist. I am interested in the civil rights outputs that 
actually come as a result of that and what legislators should 
actually be looking for. But I think combining those 
conversations and having multi-stakeholder conversations is 
also helpful because the left hand often doesn't know what the 
right hand is doing.
    Mr. Soto. Thank you.
    And for Ms. Kim, what is the role for increased 
transparency and explainability in reducing algorithmic bias?
    Ms. Kim. Thank you, Congressman.
    In looking at the decisionmakers within the tech sector, 
the employees, the professionals, the technicians, as well as 
the executives that make much of the decisions, we need to have 
more diversity. And the transparency that we need is more data. 
We applaud the efforts of companies that voluntarily release 
diversity data for recruitment, retention, and attrition data.
    But, for the AAPI community, that data is incomplete 
because it is not disaggregated. Our communities are so 
diverse, and we have to look beyond the glare of the model 
minority and say, what is actually going on behind the 
aggregated number? Yes, there are more Asian tech workers than 
other minority groups, but, in fact, if you look deeper--and we 
don't have these numbers, but based on other industries and 
other Census data and other information, we know that there are 
communities that have incredibly high poverty rates, low 
educational attainment levels, and high limited English 
proficiency levels that don't get represented at educational 
levels in schools, in other sectors. And so, we need more data 
and more information and transparency from tech companies, so 
that we can see what is actually going on underneath that model 
minority myth of Asian-Americans are doing OK.
    Mr. Soto. Thank you, Ms. Kim.
    And I just want to end with sort of a personalized story 
from my own family. My little cousins, I can't get them off of 
video games. They are of Puerto Rican descent, like I am. And 
it turned out that when one of my cousins went into the Air 
Force, that skill set ended up serving him well to be one of 
only two people out of two dozen to actually pass the drone 
aviation course.
    And it occurs to me how critical having access to 
technology at an early age is. When you look at Bill Gates or 
Bill Joy, or others, the stories go about how they had access 
to computers early on, and that proved critical in them getting 
their 10,000 hours ahead of everybody and being able to really 
change the world. So, those are things that we also will be 
taking very seriously to get into, access at an early age for 
young people of all communities.
    Thank you, and I yield back.
    Ms. Schakowsky. So, I want to thank our panel, but I also 
want to see--I spoke to our ranking member. I would like 5 more 
minutes, and I would welcome her taking 5 more minutes.
    Mr. Luckie, we have talked a lot about the pipeline and 
making sure of the educational system and educational 
opportunities. But you said something that really struck me. It 
is that, even where women and minorities, and others that 
aren't represented in the tech industry, are available, that 
they still are not hired for those jobs and advancing in the 
positions. We also see women leaving those jobs earlier than 
men.
    So, rather than blame the victims, you know, you have got 
to go to school and you have got to take these courses, what 
are we going to do about--there is obviously some 
discrimination. I really want to stop here, but ask the rest of 
the panel, what should we be doing? You have mentioned, Dr. 
Turner Lee, that there are discrimination laws that are in 
place. You have talked about the EEOC, Dean Lopez. I mean, what 
should we be doing, both about the algorithmic bias that is 
there, but also just about hiring people, investing in people 
right now?
    Mr. Luckie. Well, it is like you said, a lot of the onus 
has been put on the people who are graduating from STEM or who 
have not heard about STEM to break into these tech companies. 
But what we are finding is that the stopgap is actually 
happening within the interview process, where employees are not 
seeing people who look like them. And so, they are choosing the 
people who look like them, come from the same backgrounds, come 
from the same schools, which puts others at a disadvantage. We 
are seeing it in the discrimination that people face once they 
are inside of the companies. What is happening is that people 
are graduating from STEM, but end up choosing other industries 
because they see the discrimination.
    I think the most important point that we should take away 
from this is that the people who come from diverse backgrounds 
are the representatives of these companies who go back out into 
the communities and say, yes, you should be STEM, be in the 
STEM areas. And so, we have to call on those people to say, 
hey, we need you to go back to the communities; the people who 
are coming from Maine and from Texas, and from these locations, 
to go back and say, you can do this because I am inside of the 
company now and I am making it work.
    Ms. Schakowsky. I wonder, Dr. Turner Lee, how can we use 
the current laws to help here?
    Dr. Turner Lee. Yes, I think we have some tools in our 
toolkit. A lot of the stories that we have heard today, it is 
not just the one-time action where it happen, but it is this 
latter consequence.
    The former Obama administration was real key about putting 
out reports on algorithmic bias. It is not a new topic to us. 
The difference is, as we go over time and we let this evolve, 
that we are going to find people being denied loans. And I 
don't think we want to see structural discrimination actually 
find its place into the internet, which has always been the 
low-hanging fruit for opportunity.
    So, I think what Congress does have at its disposal are 
tools to have a conversation around nondiscrimination and to 
see which ways do we extend that. And companies, I think, in 
the tech sector are starting to realize that. Facebook, in 
particular, last year pulled down a process that was 
discriminating in the case of housing, where advertisers were 
able to click off who they did not want to serve, and they 
immediately stopped that process. But they didn't realize that 
the Fair Housing Act was one of the levers for why you 
shouldn't do that in the first place.
    So, I think Congress has an opportunity to have 
conversations about that, as we have had in the past, as we see 
these transitions happen. And I also think it is important, 
just to complement your previous question, Congresswoman, STEM 
has to be a national priority. This is no longer a conversation 
of investing in programs. We have to invest in people. And if 
we invest in people, we will have an international competitive 
edge on any of these careers, particularly as digital access 
becomes much more permeated and much more embedded in our 
society.
    Ms. Schakowsky. There is almost a minute left. Anybody else 
want to comment on that? Dr. Lopez? Go ahead.
    Mr. Lopez. Congresswoman, as part of Congress' oversight 
responsibilities over the agencies, I think there is a real 
opportunity to ask the relevant agencies, EEOC, HUD, Department 
of Justice, FTC, anybody operating in this space, what they are 
doing in this area. And it doesn't, obviously, have to be 
hostile. I came out of the EEOC. I happen to think that they 
have been very forward-thinking in this area. They continue to 
be forward-thinking. But I think that the oversight 
responsibility and the power of the purse is very important.
    Ms. Schakowsky. Go ahead. And did you say something? 
Anybody else? OK.
    Mr. Luckie. I would just like to say, in terms of the 
larger conversation, that we have to stop treating AI and 
algorithms as omnipotent, as if they know everything. They are 
still being programmed by humans, and we need to recognize that 
in order to curb this bias.
    Ms. Schakowsky. Thank you very much.
    Mrs. Rodgers. OK. Madam Chair, I wanted just to follow up 
on your line of questioning right there.
    As I said in my opening statement and opening remarks, part 
of the challenge here is that it does demand change. It is 
going to demand change in our culture. A lot of the focus today 
was on recruitment, and I think that is an important piece of 
this. We have to focus on the pipeline. That is very 
foundational. Education is important, skills training, access, 
and exposure to what is possible. Helping people imagine is 
important.
    We have talked a lot about the value of teams and having 
teams--Mr. Lopez, in your testimony it says, you highlighted 
that teams that are made up of individuals of diverse 
backgrounds are more innovative and generally make more error-
free decisions.
    I, too, just wanted to take this at the close here to kind 
of those next steps. So, even after we get some of these 
individuals hired, what is working as far as the retention and 
the promotion? Because there are these next steps. We have to 
do better at retaining these employees, and then, promoting 
them to leadership positions.
    I know I have seen some of the work on women where women 
respond to the coaching and to giving that feedback. But, 
often, when they are given a chance for leadership, they shine.
    So, I, too, just wanted to open this up at the end and ask, 
what do you see working when it comes to the retention, and 
then, the promotion to leadership? And how do we better invest 
in these people after they are hired?
    Do you want to start it, Mr. Luckie?
    Mr. Luckie. Sure. So, I will say the best thing that is 
driving retention is the employee resource groups that are in 
major tech companies and businesses everywhere, where women are 
helping women, black people are helping black people. Part of 
the reason why I stayed at Facebook as long as I did is because 
of the black ad group, which was the employees that were coming 
together, mentoring each other, exploring other opportunities 
inside the company. The more you empower those employee 
resource groups, give them the budget, give them the space in 
which to operate, the more you are going to see that retention 
increase within these companies.
    Mrs. Rodgers. Thank you. OK.
    And so, do you want to----
    Dr. Ferrini-Mundy. Yes, I will just add to that. What Mr. 
Luckie is explaining has to do with cultures within these 
environments, and those cultures get built by the people who 
are there. And so, I would still make my argument that 
education and the pathways that get provided through education, 
which include early opportunities to work together in groups, 
to learn how to be resourceful within particular subgroups, all 
of that is critical to building that kind of culture.
    Mrs. Rodgers. All right. Thank you.
    Ms. Kim or whoever is next? Yes?
    Dr. Turner Lee. If I can, in a previous life I worked with 
the cable industry doing some work. What I found there is that, 
internally, companies have to have metrics, they have to have 
accountability, and they also have to have some type of 
executive support. Without it, it doesn't work.
    Where we know diversity and inclusion works is when there 
are bonuses tied to leadership. We know that it works when the 
executive claims that this is the only way we are going to 
actually conduct business, training, et cetera. And those 
invested resources happen at an internal level.
    Obviously, we can't manage what companies do inside, but 
what we can do--and this is something I think in terms of what 
is next--is we can place a level of stewardship and 
responsibility on companies through their reporting, whether it 
is mandatory or voluntary. There are tons of regulated 
industries that provide voluntary information and scorecards on 
how they are doing with diversity. And that is something I 
think is going to be an acceptable practice going forward, 
because we, as consumers, want to know that people are doing 
the right thing. And so, I think, going forward, it is going to 
take a mix of the internal pressure and the external pressure 
to actually move to a place of, I want to say peace, where 
everybody can just get along, but where we actually indulge 
ourselves in diversity in ways that make us more profitability 
and much more successful as a country.
    Mrs. Rodgers. Thank you.
    Do you have any thoughts?
    Ms. Oliverio. Yes, thank you.
    I spent more than 10 years in recruiting all across 
technical fields, across the U.S. And in any company, in any 
demographic, in any background, the key to retention is making 
employees feel like they belong. Much like Mr. Luckie was 
stating, employee resource groups are amazing, but the core 
value there is making employees feel valued, making them feel 
like they belong. That is where veterans and military spouses 
struggle most to feel like they are a part of a unit again, to 
feel like they are welcomed in their work environment, that 
they have reasonable accommodation, and that they belong there. 
There, they are more likely to stay and to be happy and to do 
well.
    Mrs. Rodgers. Thank you.
    Ms. Houghton. In addition to seeing yourself and feeling a 
sense of belonging, I think one key thing that I want to make 
sure gets on the record is that, internally, within these 
companies we need accessible technology. If people are going to 
grow, technology accessibility has to be built in from the 
beginning, not as an afterthought.
    Mrs. Rodgers. OK. Thank you, everyone.
    Ms. Schakowsky. Thank you so much.
    I think this has been a terrific panel and something that 
we, as a Congress, need to follow up on now. Thank you.
    I request unanimous consent to enter the following 
documents into the record. Where are they? OK. The National 
Urban League letter on diversity in tech; a letter from the 
Electronic Privacy Information Center; the Internet 
Association's letter for the record; testimony from Jennifer 
Huddleston, research fellow at the Mercatus Center at George 
Mason University; a letter from Maxine Williams, Facebook's 
chief diversity officer; statement from Representative Maxine 
Waters; a blog post and case study from Charter Communications. 
Is that it?
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. Oh, I have one more page? This? OK.
    I would like to thank the witnesses for their participation 
in today's hearing.
    I remind Members that, pursuant to committee rules, they 
have 10 business days to submit additional questions for the 
record, to be answered by the witnesses who have appeared. I 
ask each witness to respond promptly to any such question that 
you may receive, and you may receive them because a number of 
people were traveling from different hearings.
    So, at this time, the subcommittee is adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                 [all]
</pre></body></html>
